<html>
<title> - H.R. 1038, H.R. 1237, H.R. 2157, H.R. 2490, H.R. 2504, H.R. 2745, H.R. 2947, H.R. 3222, H.R. 3452 AND S. 684</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
H.R. 1038, H.R. 1237, H.R. 2157, H.R. 2490, H.R. 2504, H.R. 2745, H.R. 
                 2947, H.R. 3222, H.R. 3452 AND S. 684 

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        Friday, December 2, 2011

                               __________

                           Serial No. 112-87

                               __________

       Printed for the use of the Committee on Natural Resources


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
          Committee address: http://naturalresources.house.gov


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

71-542 PDF                       WASHINGTON : 2013 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
             RAUL M. GRIJALVA, AZ, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     John P. Sarbanes, MD
Tom McClintock, CA                   Betty Sutton, OH
David Rivera, FL                     Niki Tsongas, MA
Scott R. Tipton, CO                  John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Mark Amodei, NV
Doc Hastings, WA, ex officio



                                 ------                                

                                CONTENTS

                                 ------                              
                                                                   Page

Hearing held on Friday, December 2, 2011.........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     2
        Prepared statement of....................................     2

Statement of Witnesses:
    Becker, Hon. Ralph, Mayor, Salt Lake City, Utah..............    29
        Prepared statement of....................................    30
    Cravaack, Hon. Chip, a Representative in Congress from the 
      State of Minnesota.........................................     7
        Prepared statement on H.R. 2947..........................     8
    Goar, Michael, Managing Director, The Canyons Ski Resort, 
      Park City, Utah............................................    27
        Prepared statement on H.R. 3452..........................    28
    Gosar, Hon. Paul, a Representative in Congress from the State 
      of Arizona, Oral statement on H.R. 1038....................    12
    Gregory, Rusty, Chairman and Chief Executive Officer, Mammoth 
      Mountain Ski Area..........................................    36
        Prepared statement on H.R. 2157..........................    38
    Heck, Hon. Joseph, a Representative in Congress from the 
      State of Nevada............................................     9
        Prepared statement on H.R. 2745..........................    10
    Herger, Hon. Wally, a Representative in Congress from the 
      State of California........................................     5
        Prepared statement on H.R. 1237..........................     6
    Jensen, Michael H., Councilman, Salt Lake County Council.....    24
        Prepared statement of....................................    26
    Larson, Hon. John, a Representative in Congress from the 
      State of Connecticut, Oral statement on H.R. 2504..........     4
    McKeon, Hon. Howard ``Buck,'' a Representative in Congress 
      from the State of California, Prepared statement on H.R. 
      2157.......................................................    53
    O'Dell, Peggy, Deputy Director, National Park Service, U.S. 
      Department of the Interior.................................    19
        Prepared statement on H.R. 2490..........................    20
        Prepared statement on H.R. 2504..........................    21
        Prepared statement on H.R. 2745..........................    23
        Prepared statement on H.R. 3222..........................    24
    Ryan, Matt, Supervisor, Coconino County Board of Supervisors, 
      Coconino County, Arizona...................................    34
        Prepared statement of....................................    35
    Segarra, Pedro E., Mayor, City of Hartford, Connecticut......    40
        Prepared statement of....................................    41
    Smith, Gregory, Acting Deputy Chief of Staff, United States 
      Department of Agriculture..................................    13
        Prepared statement on H.R. 1038..........................    15
        Prepared statement on H.R. 1237..........................    15
        Prepared statement on H.R. 2157..........................    17
        Prepared statement on H.R. 2947..........................    17
        Prepared statement on H.R. 3452..........................    18
        Prepared statement on S. 684.............................    19

Additional materials supplied:
    Citizens' Committee to Save Our Canyons, Statement submitted 
      for the record by Hon. Ralph Becker........................    54
    Wier, Hon. Mark, Mayor, City of Mesquite, Nevada, Statement 
      submitted for the record...................................    55
                                     

LLEGISLATIVE HEARING ON H.R. 1038, TO AUTHORIZE THE CONVEYANCE 
OF TWO SMALL PARCELS OF LAND WITHIN THE BOUNDARIES OF THE 
COCONINO NATIONAL FOREST CONTAINING PRIVATE IMPROVEMENTS THAT 
WERE DEVELOPED BASED UPON THE RELIANCE OF THE LANDOWNERS IN AN 
ERRONEOUS SURVEY CONDUCTED IN MAY 1960; H.R. 1237, TO PROVIDE 
FOR A LAND EXCHANGE WITH THE TRINITY PUBLIC UTILITIES DISTRICT 
OF TRINITY COUNTY, CALIFORNIA, INVOLVING THE TRANSFER OF LAND 
TO THE BUREAU OF LAND MANAGEMENT AND THE SIX RIVERS NATIONAL 
FOREST IN EXCHANGE FOR NATIONAL FOREST SYSTEM LAND IN THE 
SHASTA-TRINITY NATIONAL FOREST, AND FOR OTHER PURPOSES; H.R. 
2157, TO FACILITATE A LAND EXCHANGE INVOLVING CERTAIN NATIONAL 
FOREST SYSTEM LANDS IN THE INYO NATIONAL FOREST, AND FOR OTHER 
PURPOSES; H.R. 2490, TO AMEND THE NATIONAL TRAILS SYSTEM ACT TO 
PROVIDE FOR A STUDY OF THE CASCADIA MARINE TRAIL; H.R. 2504, TO 
ESTABLISH COLTSVILLE NATIONAL HISTORICAL PARK IN THE STATE OF 
CONNECTICUT, AND FOR OTHER PURPOSES. ``COLTSVILLE NATIONAL 
HISTORICAL PARK ACT''; H.R. 2745, TO AMEND THE MESQUITE LANDS 
ACT OF 1986 TO FACILITATE IMPLEMENTATION OF A MULTISPECIES 
HABITAT CONSERVATION PLAN FOR THE VIRGIN RIVER IN CLARK COUNTY, 
NEVADA; H.R. 2947, TO PROVIDE FOR THE RELEASE OF THE 
REVERSIONARY INTEREST HELD BY THE UNITED STATES IN CERTAIN LAND 
CONVEYED BY THE UNITED STATES IN 1950 FOR THE ESTABLISHMENT OF 
AN AIRPORT IN COOK COUNTY, MINNESOTA; H.R. 3222, TO DESIGNATE 
CERTAIN NATIONAL PARK SYSTEM LAND IN OLYMPIC NATIONAL PARK AS 
WILDERNESS OR POTENTIAL WILDERNESS, AND FOR OTHER PURPOSES; 
H.R. 3452, TO PROVIDE FOR THE SALE OF APPROXIMATELY 30 ACRES OF 
FEDERAL LAND IN UINTA-WASATCH-CACHE NATIONAL FOREST IN SALT 
LAKE COUNTY, UTAH, TO PERMIT THE ESTABLISHMENT OF A MINIMALLY 
INVASIVE TRANSPORTATION ALTERNATIVE FOR SKIERS, CALLED 
`SKILINK', TO CONNECT TWO SKI RESORTS IN THE WASATCH MOUNTAINS, 
AND FOR OTHER PURPOSES. ``WASATCH RANGE RECREATION ACCESS 
ENHANCEMENT ACT''; AND S. 684, A BILL TO PROVIDE FOR THE 
CONVEYANCE OF CERTAIN PARCELS OF LAND TO THE TOWN OF ALTA, 
UTAH.
                              ----------                              


                        Friday, December 2, 2011

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:31 a.m. in 
Room 1302, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Amodei, Grijalva, Kildee, 
and Garamendi.
    Also present: Representatives Gosar and Herger.
    Mr. Bishop. All right. We are happy to have you all here. 
This hearing will now come to order. The Chair notes the 
presence of a quorum. The Subcommittee on National Parks, 
Forests and Public Lands is meeting today to hear testimony on 
eight bills.
    Under the rules, opening statements are limited to the 
Chairman and Ranking Member. However, I ask unanimous consent 
to include any Member's opening statement in the hearing record 
if they are submitted by the close of business today. Hearing 
no objection, so ordered.
    I also ask unanimous consent that any Members who will be 
testifying who would like to participate may be able to join us 
here on the dais. So ordered.
    I want to thank our colleagues and the witnesses who have 
agreed to testify today on this agenda. As I said, we have 
eight bills that will be here that we will talk about. They all 
address unique land management issues.
    And with that, I am going to make any public statements I 
have on the two bills with which I am related here when we turn 
to the first panel, and I will turn to the Ranking Member for 
any opening statement he may have.

    STATEMENT OF HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman. I am going to submit 
my opening statement for the record so that we can expedite the 
meeting. Thank you. I yield back.
    [The prepared statement of Mr. Grijalva follows:]

     Statement of The Honorable Raul M. Grijalva, Ranking Member, 
        Subcommittee on National Parks, Forests and Public Lands

    Mr. Chairman, while the scheduling of today's meeting was not 
ideal, we do appreciate the inclusion of several measures sponsored by 
our Democratic colleagues.
    Mr. Inslee's legislation to authorize a study of the Cascadia 
Marine Trail is a popular proposal that passed the House last Congress 
by voice vote.
    Mr. Larson's legislation regarding the fascinating history of the 
Colt Arms manufacturing site has raised concerns in the past but there 
appear to be changed circumstances that will resolve those concerns. We 
look forward to hearing more about these developments.
    Mr. Dicks' wilderness bill has already been the subject of a 
hearing in this subcommittee as part of our consideration of H.R. 1162.
    This wilderness proposal in Olympic National Park has been 
introduced as a stand-alone bill at the suggestion of Subcommittee 
Chairman Bishop and Chairman Hastings and it is our hope the Committee 
can approve this measure quickly.
    Lastly, I should note that the legislation sponsored by Chairman 
Bishop, H.R. 3452, has raised some concern. We stand ready to work with 
you on this bill, Mr. Chairman, in hopes that the concerns raised by 
Mayor Becker and others can be addressed.
    We appreciate our colleagues and the other witnesses being here and 
look forward to their testimony. Thank you.
                                 ______
                                 
    Mr. Bishop. Thank you. Great. I appreciate that. All right. 
Since most of our first panel is on their way and aren't here 
yet, we are going to start eventually Congressman Herger and 
Congressman McKeon. The gentleman from Minnesota and it looks 
like the gentleman from Nevada will be here. Representative 
Gosar, who is a Member of our Committee, has a bill that will 
be introduced, and I have two I wish to speak to.
    So what we will do is let me say a couple of things very 
briefly about the two bills that I have. Then we will turn to 
Representative Larson for your testimony. Once again, if you 
would like to stay with us, we would be happy to have you here. 
No one has ever taken me up on that offer, but whatever works 
well. And then we will turn to Representative Gosar.

STATEMENT OF HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF UTAH

    Mr. Bishop. I would just like to mention two things. We 
have two bills here with which I am related. First is Senator 
Lee's bill, 684. This is one of those simple bills that the 
City of Alta, which is up in the mountains, wants two acres of 
Federal land to build necessary public accommodations that they 
have up there.
    It is two acres, and, like the usual bureaucratic mess that 
we have around here, it has taken four years to get Congress to 
agree to give them two acres to build their municipal 
buildings. But it has finally cleared the Senate. Eventually I 
hope we can actually expedite that and have it clear the House 
as well.
    I also have another bill that is here, which is H.R. 3452, 
that is co-sponsored by other Members of the Utah delegation 
and a like bill that is also over in the Senate. This is a bill 
that would actually add 30 acres of Federal ground to enhance 
the recreation aspects in two of our mountain ski resorts by 
putting a SkiLink in the form of a gondola type situation to go 
from one resort to the other.
    It has the opportunity of enhancing our tourism aspect, 
adding more tourists but at the same time hopefully not adding 
more vehicle traffic going up the canyons to these two resorts. 
This bill is also introduced in the Senate, and this starts our 
public comment period on this particular bill.
    As I have said before, as this bill moves its way through, 
I as well as the other co-sponsors on this and the Senate bill 
will be more than happy to look at any ideas we can to improve 
this bill and make it more compatible. Already we have made 
some adjustments to it on the recommendations of some Members 
of Congress. I will continue to look at those in the future, 
but I appreciate that. We will be hearing more from it.
    Mr. Bishop. If I could take just a personal privilege right 
now, unfortunately I am going to have to leave. I have another 
meeting at 11:00, so I am going to turn this over, but I have 
three constituents who are here to testify. If I can do this 
totally out of order, I would just like those three to stand so 
I can formally introduce them even though they are going to be 
on the second panel and I probably won't be here at that time, 
for which I once again apologize. It is my bad.
    First of all, Mike Jensen, who is a firefighter by 
profession, but he is also a member of the Salt Lake County 
Council. I appreciate him being here. Mike Goar, who is the 
Managing Director of the Canyons Resort, which is one of the 
terminuses of this potential link, and Mayor Ralph Becker, who 
is the Mayor of Salt Lake City. I appreciate those three. A 
couple of them are actually constituents. Mike, you are not, 
but who knows? Someday. Someday. I appreciate you all for 
coming here and being here, and I appreciate you participating 
in the second panel.
    All right. With that, we will also turn to the panel here. 
Representative Larson, I promised you could go first because 
you came here first. If you would like to testify to your bill, 
we would be happy to hear it now.

  STATEMENT OF HON. JOHN LARSON, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF CONNECTICUT

    Mr. Larson. Well, I thank the distinguished Chairman and 
Ranking Member Grijalva----
    [Microphone out for 26 seconds.]
    Mr. Larson.--and I am pleased to be joined today by the 
Mayor of the City of Hartford, who will be testifying in the 
second panel, and also Peggy O'Dell from the National Park 
Service, who will be testifying in favor of the bill as well. 
We were fortunate to have Secretary Salazar out at the site 
this past September. The Mayor of Hartford will be addressing 
some of the very economic concerns that Chairman Bishop raised.
    What is unique about this and historic has already been 
well established in studies, but just briefly what I would like 
to say is that this was of course, as many of you know, 
Coltsville is where Samuel Colt and Elizabeth Colt 
manufactured--one of the leading manufacturers at the time--the 
gun that won the West. But in fact it was a gun that was used 
during the Civil War, and Colt Manufacturing is still in 
existence and still making guns and has done so for the United 
States military from the Civil War to Afghanistan.
    The unique history that is provided here is not just the 
manufacturing, and this was central in this region to 
manufacturing, but the whole concept of interchangeable parts 
in a revolver and even more so that Samuel Colt dies and a 
woman takes charge and runs Colt Manufacturing for the next 40 
years. So indeed it was a woman that was in charge of a 
company. She could not vote at the time, and it would have been 
what we would call one of the top Fortune 5 companies at that 
time in the United States.
    It was a place where people came to learn about 
interchangeable parts and assembly line manufacturing. And 
whether it was Henry Ford or Pratt & Whitney, both in 
automobiles and aerospace, but it also spawned the bicycle, the 
typewriter and the automobile in terms of its manufacturing 
significance and its process. Colt Manufacturing was the first 
manufacturer to actually have a plant overseas, the first 
American plant of its kind to do so, because of its unique 
assembly line and interchangeable parts concept and of course 
because of the legacy of the Colt revolver and gun itself.
    Many of you on this Committee come from states where the 
entire State of Connecticut could fit into just one of your 
national parks, and what we are calling for is 10,000 square 
feet. And what is unique about this, and I want to emphasize 
this, is the collective enterprise that is involved in putting 
this together. By collective enterprise I mean this: From the 
grassroots up, the local community has bought into this because 
of not only its historic significance but its significance to 
its neighborhood and community.
    You will hear from the Mayor of Hartford talking about the 
economic value, more than $150 million of economic value and 
1,000 jobs created by this visitors center that will highlight 
the great treasures of the Colt Museum, many of which are 
stored and out of sight in our state library.
    The collaboration between the local grassroots people, the 
municipal government and the City of Hartford, the State of 
Connecticut, who has bought into this, and of course our 
National Park Service all are vitally important, as well as the 
private sector and the commercial sector, who have joined in 
making sure that this becomes an incredible unique experience.
    But what I want to leave you with today is what this means 
is validation. Having been to a number of our national parks 
and knowing the pride and prestige that happens when you walk 
by the person garbed with that hat and that uniform, it 
validates for people of the City of Hartford and the State of 
Connecticut that sends far more to the Federal Government in 
terms of revenue than what it is asking in return.
    And for this small piece of history, it is not the Grand 
Canyon, but it is a grand vision that envelops all the people 
in the area. It is history in your backyard that not only by 
preserving it enhances that future for everybody else but also 
brings a community together. So I ask the Committee to view 
this favorably.
    I know you are going to hear from the Mayor and the 
National Park Service as well, and I thank you for the 
opportunity to make the case. Again, we will submit extraneous 
testimony in people from the Chamber of Commerce to the State 
of Connecticut to various historical groups, again testifying 
to the validity of the program and its historic significance 
and economic impact for the region.
    And with that, I thank you.
    Mr. Bishop. Thank you, Representative Larson. John, you are 
welcome to stay here and answer questions at the end or stay 
here and join us, but I also realize you have a schedule and a 
life to live, so whatever you wish to do. I feel for you.
    Mr. Larson. I thank the Chairman. As much as I would like 
to stay with him, like him, I also have another meeting that I 
have to go to. I apologize because I indeed otherwise would 
have taken you up on the offer.
    Mr. Bishop. Well, both Raul and I are taking this personal, 
but it is OK.
    [Laughter.]
    Mr. Bishop. I actually turn to Representative Herger right 
now. Wally, if you would like to speak to introduce your piece 
of legislation, and then the same thing will apply to you. If 
you would like to stay with us on the dais, we have already 
done a UC that would allow it.

 STATEMENT OF HON. WALLY HERGER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Herger. Thank you very much, Chairman Bishop, for 
holding this hearing and inviting me to participate.
    In the Northern California congressional district I 
represent, the Federal Government owns an enormous amount of 
the land with it reaching as high as 75 percent in Trinity 
County. The Trinity County Public Utilities District, TPUD, 
owns property surrounded by land administered by the Bureau of 
Land Management and the Forest Service. TPUD seeks to 
economically improve one parcel near the Weaverville Airport, 
but it currently cannot do so because it is landlocked by the 
Forest Service.
    I introduced H.R. 1237 to provide for an exchange of 
certain TPUD parcels for a portion of the Federal land that is 
around the District property near the airport. My legislation 
would transfer 47 acres of the District's property near the 
Trinity River known as Sky Ranch to the Bureau of Land 
Management and 150 acres within Six Rivers National Forest, 
known as Van Duzen, to the Forest Service. TPUD would receive a 
parcel of equal value from the Shasta-Trinity National Forest 
that surrounds their site at the airport.
    This land exchange would benefit the Federal Government by 
consolidating BLM and Forest Service holdings and increase the 
efficiency of managing the land. This would allow TPUD to 
develop the property and enhance economic opportunity for the 
community. Trinity County faces significant challenges 
attracting businesses because the Federal Government owns 75 
percent of the available land, over 1.5 million acres, limiting 
the availability of land for commercial use.
    The county also faces significant economic challenges 
because government mismanagement and lawsuits from fringe 
groups have shut down responsible stewardship and management of 
the county's vast timber resources. This decline in management 
has been devastating to the timber industry and had a 
multiplier effect throughout the county's economy with severe 
impacts on schools, infrastructure and small retail businesses.
    I have received letters of support of this legislation from 
the Trinity County Board of Supervisors, the Trinity County 
Resource District, the Weaverville Community Forest and the 
Rotary Club of Hayfork. I would like to submit them into the 
record.
    [NOTE: The letters submitted for the record by Mr. Herger 
have been retained in the Committee's official files.]
    Mr. Herger. In closing, I strongly believe that these 
resources belong to the people and local needs should drive 
their management. Common-sense land exchanges like the one my 
legislation would implement would have the twofold benefit of 
making Federal land management more efficient while providing 
local communities with greater access to their natural 
resources.
    I look forward to working with the Committee to pass this 
common-sense land exchange bill and again thank you.
    [The prepared statement of Mr. Herger follows:]

   Statement submitted for the record by The Honorable Wally Herger, 
       a Representative in Congress from the State of California

    Thank you Chairman Bishop for holding this hearing and inviting me 
to participate. In the Northern California Congressional District I 
represent, the federal government owns an enormous amount of the land, 
with it reaching as high as 75% in Trinity County. The Trinity County 
Public Utilities District, TPUD, owns property surrounded by land 
administered by the Bureau of Land Management and the Forest Service. 
TPUD seeks to economically improve one parcel near the Weaverville 
Airport, but it currently cannot do so because it is landlocked by the 
Forest Service. I introduced H.R. 1237 to provide for an exchange of 
certain TPUD parcels for a portion of the federal land that surround 
the district's property near the airport.
    My legislation would transfer 47 acres of the district's property 
near the Trinity River, known as ``Sky Ranch,'' to the Bureau of Land 
Management and 150 acres within Six Rivers National Forest, known as 
``Van Duzen,'' to the Forest Service. TPUD would receive a parcel of 
equal value from the Shasta-Trinity National Forest that surrounds 
their site at the airport.
    This land exchange would benefit the federal government by 
consolidating BLM and Forest Service holdings and increase the 
efficiency of managing the land. This would allow TPUD to develop the 
property and enhance economic opportunities for the community.
    Trinity County faces significant challenges attracting businesses 
because the federal government owns 75% of the available land, over one 
and a half million acres, limiting the availability of land for 
commercial use. The county also faces significant economic challenges 
because government mismanagement and lawsuits from fringe groups has 
shut down responsible stewardship and management of the county's vast 
timber resources. This decline in management has been devastating to 
the timber industry and had a multiplier effect throughout the county's 
economy with severe impacts on schools, infrastructure and small retail 
businesses. I have received letters of support of this legislation from 
the Trinity County Board of Supervisors, the Trinity County Resource 
District, the Weaverville Community Forest and the Rotary Club of 
Hayfork. I would like to submit them into the record.
    In closing, I strongly believe that these resources belong to the 
people, and local needs should drive their management. Common-sense 
land exchanges like the one my legislation would implement would have 
the two-fold benefit of making federal land management more efficient 
while providing local communities with greater access to their natural 
resources. I look forward to working with the committee to pass this 
common-sense land exchange bill.
                                 ______
                                 
    Mr. Bishop. Thank you, Representative. Once again, feel 
free to stay with us if you would like to.
    Mr. Herger. Thank you.
    Mr. Bishop. The gentleman from Minnesota, Chip--we always 
call you Chip because I am really not sure how to pronounce 
your name properly. Is it Cravaack? Cravaack?
    Mr. Cravaack. Cravaack, Cravaack. I answer to a lot of 
different ones.
    Mr. Bishop. Congressman, you are up.
    Mr. Cravaack. Thank you, sir.
    Mr. Bishop. If you would introduce your bill, we would 
appreciate it.

 STATEMENT OF HON. CHIP CRAVAACK, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Cravaack. Thank you, Chairman Bishop and Ranking Member 
Grijalva, for holding today's important legislation and hearing 
and thank you for kindly inviting me to come testify on my 
bill, H.R. 2947. This is an issue of great importance to the 
men and women of the 8th District of Minnesota.
    Mr. Chairman, in July of 1950, the Department of 
Agriculture initiated a land transfer with Cook County in 
northeastern Minnesota. The land was given with sole 
expectation that it would be used for the sole purpose of 
building the Cook County Airport. A clause was placed in the 
deed that should the land be used for anything other than an 
airport-related development, the deal would become void and the 
property would revert back to the Department of Agriculture.
    Currently, the Cook County Highway Department is trying to 
finish construction of a road that would require usage of a 
100-foot easement of land currently in possession by the Cook 
County Airport. While both the Cook County Highway Department 
and the Cook County Airport are in favor of building on the 
100-foot easement, the land in question is part of the original 
1950 land procurement made between the Department of 
Agriculture and the State of Minnesota.
    Cook County officials contacted the Federal Aviation 
Administration about the matter. The FAA informed them that an 
Act of Congress was needed to resolve the issue. Therefore, I 
sit here today attempting to solve this unforeseen dilemma. My 
legislation would instruct the Secretary of Agriculture to 
execute and file a deed of release, other appropriate 
instruments reflecting the release of the reversionary interest 
and changing the conditions of the agreement.
    H.R. 2947 does not seek an appropriation of Federal funds. 
It is only a purpose to remove a clause placed in the deed when 
the land was originally granted. Members of the Committee, this 
piece of legislation has wide support back home in Minnesota 
and in my district and, quite frankly, just makes sense.
    The Cook County Board is planning to consider a resolution 
of support in its upcoming December 13 meeting. With me today I 
have a letter from the Cook County Highway Department offering 
its full support of H.R. 2947. Mr. Chairman, I respectfully 
request that the letter be inserted in the hearing for record.
    [NOTE: The letter submitted for the record by Mr. Cravaack 
has been retained in the Committee's official files.]
    Mr. Cravaack. Additionally, my staff has reached out to the 
United States Forest Service and they have no objections and 
support this legislation moving forward. I am hopeful the House 
Natural Resources Committee will next report this bill out of 
the full Committee, making it ready for the Floor for 
consideration.
    Again, thank you, Chairman Bishop and Ranking Member and 
all Members of the Subcommittee, for allowing me to have this 
opportunity to testify, and I yield back my time.
    [The prepared statement of Mr. Cravaack follows:]

Statement of Gregory Smith, Acting Deputy Chief of Staff, United States 
Department of Agriculture, on S. 684, To provide for the conveyance of 
           certain parcels of land to the Town of Alta, Utah

    Thank you Chairman Bishop and Ranking Member Grijalva for holding 
today's important legislative hearing, and thank you for kindly 
inviting me to come testify on my bill, H.R. 2947. This is an issue of 
great importance to me and my constituents back in the 8th District of 
Minnesota.
    Mr. Chairman, in July of 1950 the Department of Agriculture 
initiated a land transfer with Cook County in northeastern Minnesota. 
The land was given with the expectation that it would be used for the 
sole purpose of building the Cook County Airport. A clause was placed 
in the deed that should the land be used for anything other than 
airport related development, the deal would become void and the 
property would revert back to the Department of Agriculture.
    Currently, the Cook County Highway Department is trying to finish 
construction of a road that would require the usage of a 100 foot 
easement of land currently in possession of the Cook County Airport. 
While both the Cook County Highway Department and the Cook County 
Airport are in favor of building on the 100 foot easement, the land in 
question is part of the original 1950 land procurement made between the 
Department of Agriculture and the State of Minnesota.
    Our local county officials contacted the Federal Aviation 
Administration (FAA) about the matter. The FAA official they spoke to 
said an act of Congress was needed to resolve the issue.
    Therefore, I sit here today attempting to solve this unforeseen 
dilemma. My legislation would instruct the Secretary of Agriculture to 
execute and file a deed of release, other appropriate instruments 
reflecting the release of the reversionary interest, and changing the 
conditions of the agreement. H.R. 2947 does not seek any appropriation 
of federal funds; its only purpose is to remove a clause placed in the 
deed when the land was granted.
    Members of the committee, this piece of legislation has wide 
support back home in my District. The Cook County Board is planning to 
consider a resolution of support in its upcoming December 13th meeting.
    With me today I have a letter from the Cook County Highway 
Department offering its full support for the H.R. 2947. I would 
respectfully request that the letter be inserted into the Hearing 
Record.
    Additionally, my staff has reached out to the United States Forest 
Service and they have responded by saying that they have no objections 
and support this legislation moving forward.
    I'm hopeful the House Natural Resources Committee will next report 
this bill out of the full committee, making it ready for floor 
consideration.
    Again, thank you Chairman Bishop, Ranking Member Grijalva, and all 
members of the subcommittee for allowing me the opportunity to testify 
today.
                                 ______
                                 
    Mr. Bishop. Thank you, Representative Cravaack. As I said, 
you are welcome to stay here if you would like to.
    Mr. Cravaack. Thank you, sir.
    Mr. Bishop. We will next turn to Representative Heck. The 
same thing, if you would like to introduce the piece of 
legislation you have, and once again, if you would like to stay 
afterwards to join us on the dais, you are invited to.

  STATEMENT OF HON. JOSEPH HECK, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Heck. Thank you, Chairman Bishop and Ranking Member 
Grijalva. Thank you for inviting me to testify before the 
Subcommittee on H.R. 2745, legislation that amends the Mesquite 
Lands Act of 1986.
    The original Mesquite Lands Act was passed in 1986 and 
provided the City of Mesquite the exclusive right to purchase 
at fair market value certain Federal land under the control of 
the Bureau of Land Management. As the city is landlocked by 
public lands and was the fastest growing city in the country 
for much of the 1990s, this legislation was amended in 1996 to 
allow the city to purchase additional Federal lands to ensure 
Mesquite could continue to grow and prosper in a positive 
manner.
    In 1999, Congress passed the latest Mesquite Lands Act 
amendment with the specific purpose of providing land to 
construct a commercial airport and to provide more room for 
commercial and industrial development to again meet future 
demands for its citizens and a rapidly growing tourism 
industry.
    In 2002, the U.S. Fish and Wildlife Service issued a 
Mesquite Lands Act biological opinion to the BLM which 
promulgated certain terms and conditions associated with the 
land sale. A key term contained in the biological opinion is a 
mandate that the city participate in the development and 
implementation of a habitat conservation and recovery plan and 
a hydrologic monitoring and mitigation plan along the Virgin 
River.
    In response to the Mesquite Lands Act biological opinion, 
Congress made a technical amendment to the Act within the Clark 
County Conservation of Public Land and Natural Resources Act of 
2002 that set aside a portion of the proceeds from the sale of 
each parcel for the development of these plans. However, 
language allowing for the implementation of these plans was 
inadvertently omitted from this amendment.
    Other Nevada land Acts, such as the Southern Nevada Public 
Lands Management Act and the Lincoln and White Pine County 
Lands Acts, clearly state that funds shall be expended on 
development and implementation of multispecies habitat 
conservation plans that are associated with new development. I 
believe that the same process should be applied to the Mesquite 
Lands Act.
    The City of Mesquite has instituted an interim fee for each 
acre of land disturbed by development estimated to generate up 
to $10 million over the life of the recovery plan. Another $9 
million has been committed to the program from the Southern 
Nevada Water Authority, and the Virgin Valley Water District is 
contemplating a mitigation fee for each new service hookup that 
will generate up to $19 million.
    However, costs for the mitigation and recovery efforts 
could reach $63 million, making the implementation language 
clarification of utmost importance. It is estimated that this 
would provide an additional $4.8 million to this effort, which 
is the balance of the special fund currently held by the U.S. 
Department of the Interior.
    Again, H.R. 2745 is just a legislative clarification 
regarding the special funds, allowing for the development and 
implementation of the conservation and recovery plans. This is 
consistent with other habitat conservation plans in Nevada, and 
the same process should be applied to the City of Mesquite.
    In addition to this clarification, there is an issue 
regarding the timing of the land sales identified in the 1999 
amendment to the Lands Act which is also addressed in H.R. 
2745. The legislation gives the city the exclusive right to 
purchase at fair market value the land identified in the Lands 
Act from BLM for a period of 12 years from the date of 
enactment.
    However, due to the severe economic conditions that 
continue to plague southern Nevada and a delay of the 
environmental impact statement for the airport site, the city 
is not in a position to purchase the final sections of property 
at this time and therefore was not able to make this deadline. 
The City of Mesquite remains committed to ensure that it 
continues to grow in a positive manner and needs an extension 
of time to allow economic conditions to improve.
    In closing, I would like to again thank Chairman Bishop and 
Ranking Member Grijalva as well as the other Members of the 
Subcommittee for holding a hearing on H.R. 2745. A letter of 
support from the BLM has been provided for the record.
    [The letter submitted for the record by Mr. Heck has been 
retained in the Committee's official files.]]
    Mr. Heck. I look forward to answering any questions the 
Subcommittee might have. I yield back the balance of my time.
    [The prepared statement of Mr. Heck follows:]

Statement of The Honorable Joe Heck, a Representative in Congress from 
 the State of Nevada, on H.R. 2745, Amending the Mesquite Lands Act of 
                                  1986

    Chairman Bishop and Ranking Member Grijalva, thank you for inviting 
me to testify before the Subcommittee on H.R. 2745, legislation that I 
introduced on August 4th of this year that amends the Mesquite Lands 
Act of 1986.
    The original Mesquite Lands Act was passed in 1986 and provided the 
City of Mesquite the exclusive right to purchase, at fair market value, 
certain federal land under the control of the Bureau of Land Management 
(BLM). As the City is landlocked by public lands and was the fastest 
growing city in the country for much of the 1990's, this legislation 
was amended in 1996 to allow the City to purchase additional federal 
lands to ensure Mesquite could continue to grow and prosper in a 
positive manner. In 1999, Congress passed the latest Mesquite Lands Act 
amendment with the specific purpose of providing land to construct a 
commercial airport and to provide more room for commercial and 
industrial development to again meet future demands for its citizens 
and a rapidly growing tourism industry.
    In 2002, The U.S. Fish and Wildlife Service issued a Mesquite Lands 
Act Biological Opinion to the BLM which promulgated certain terms and 
conditions associated with the land sale. A key term contained in the 
Biological Opinion is a mandate that the City participate in the 
development and implementation of a Habitat Conservation and Recovery 
Plan (VRHCRP) and a Hydrologic Monitoring and Mitigation Plan (HMMP) 
along the Virgin River.
    In response to the Mesquite Lands Act Biological Opinion, Congress 
made a technical amendment to the Act within The Clark County 
Conservation of Public Land and Natural Resources Act of 2002 that set 
aside a portion of the proceeds from the sale of each parcel for the 
``development'' of the Recovery Plan and the Hydrologic Monitoring and 
Mitigation Plan. It is apparent that, during this process, language 
allowing for the ``implementation'' of these plans was inadvertently 
omitted from this amendment. Other land acts, such as Southern Nevada 
Public Lands Management Act and the Lincoln and White Pine County Lands 
Acts, clearly state that funds shall be expended on development and 
implementation of multi-species habitat conservation plans that are 
associated with new development in their respective areas. I believe 
that the same process should be applied to the Mesquite Lands Act.
    The Habitat Conservation and Recovery Plan was established to 
provide a mechanism for federal and non-federal entities to work 
collaboratively to protect and conserve imperiled species in the Lower 
Virgin River Basin. The Hydrologic Monitoring and Mitigation Plan 
provides for monitoring to assure the Virgin River is not adversely 
affected by the extraction of groundwater for new development. 
Additionally, an important function of the Conservation and Recovery 
Plan will be to provide a forum to coordinate ongoing aquatic and 
riparian species conservation and recovery efforts within the basin. In 
concert with habitat plan development, the U.S. Fish and Wildlife 
Service has notably allowed development to continue in Mesquite, with 
the understanding that the plan would be implemented upon adoption. The 
unique process merges a habitat conservation planning process with a 
recovery plan.
    The City of Mesquite has instituted an interim fee for each acre of 
land disturbed by development, estimated to generate up to $10 million 
over the life of the Habitat Conservation and Recovery Plan. Another $9 
million has been committed to the program from the Southern Nevada 
Water Authority and The Virgin Valley Water District is contemplating a 
mitigation fee for each new service hookup that will generate up to 
$19,000,000. However, costs for the mitigation and recovery efforts 
could reach $63 million, making the ``implementation'' language 
clarification of utmost importance. It is estimated that this would 
provide an additional $4.8 million to this effort, which is the balance 
of the special fund being held by the U.S. Department of Interior.
    H.R. 2745 is a legislative clarification regarding the special 
funds allowing for the development and implementation of the Habitat 
Conservation and Recovery Plan and the Hydrologic Monitoring and 
Mitigation Plan. This is consistent with other Habitat Conservation 
Plans in Nevada and the same process should be applied to the City of 
Mesquite.
    In addition to the clarification for the Habitat Conservation and 
Recovery Plan, there is an issue regarding the timing of the land sales 
identified in the 1999 amendment to the Mesquite Lands Act that is also 
addressed in H.R. 2745. The legislation gives the City the exclusive 
right to purchase, at fair market value, the land identified in the 
Mesquite Lands Act from the Bureau of Land Management for a period of 
12 years from the date of enactment of the Land Act. Due to the severe 
economic conditions that continue to plague Southern Nevada and a delay 
of the Environmental Impact Statement for the Airport site, the City is 
not in a position to purchase the final sections of property at this 
time and, therefore, was not be able to make this deadline. The City of 
Mesquite remains committed to ensure that it continues to grow in a 
positive manner, and needs an extension of time to allow economic 
conditions to improve.
    In closing, I would like to again thank Chairman Bishop and Ranking 
Member Grijalva, as well as the other members of the Subcommittee, for 
holding a hearing on H.R. 2745. As the tourism industry continues to 
grow and prosper, a greater capacity for air carrier service will be 
required to meet the needs of the region. In addition, the City of 
Mesquite is land locked by public land, much of which has been 
identified as Areas of Critical Environmental Concern by the Bureau of 
Land Management and the Fish and Wildlife Service. This legislation 
will allow the City to continue to control the path of its future 
expansion and develop new commercial air service, as well as correct a 
previous oversight to allow for both the development and implementation 
of the Habitat Conservation and Recovery Plan and the Hydrologic 
Monitoring and Mitigation Plan, making it consistent with other Habitat 
Conservation Plans in Nevada. I look forward to answering any questions 
the Subcommittee might have.
                                 ______
                                 
    Mr. Bishop. Thank you, Joe. I appreciate it.
    For those who are going to participate in the second panel, 
I will just let you know this is unfortunate. It is not 
supposed to happen this way, but on Fridays it sometimes does. 
We are now scheduled to have votes sometime around 11:00, so we 
are going to finish this first panel here and then probably 
take a break for the votes and then come back.
    So if I could just ask you to simply mill around and waste 
your time while we get done. We will be back here eventually, 
sometime hopefully around 11:30-ish, give or take a half hour.
    So, with that, Representative Gosar, you have been kind 
enough to wait, but you are on the Committee, so you will stay 
here anyway. I would ask you to introduce your bill if you 
would.

STATEMENT OF HON. PAUL GOSAR, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ARIZONA

    Dr. Gosar. Thank you, Chairman Bishop, Ranking Member 
Grijalva. Thank you very much for considering this important 
bill, H.R. 1038. My bill will provide long-awaited relief to 
the residents of Mountainaire Subdivision in Coconino County, 
Arizona. An incorrect BLM survey in the 1960s mistakenly 
identified between two and a half and three acres of Forest 
Service land as private property. As a result, 27 property 
owners are facing questions and difficulties over their own 
properties and their own homes.
    But don't take my word for it. What we did is we asked to 
involve the people back home, and if you will turn your 
attention to the monitors and if we could get the lights 
dimmed, they will tell you their story. Hopefully it is going 
to work.
    Mr. Bishop. The technology doesn't work because we are in 
the Ag room. If we were in our own room, this would work 
perfectly, right?
    [Video shown.]
    Dr. Gosar. Well, unfortunately we ran through this several 
times yesterday and it actually worked very, very well. I 
apologize. You know, when something goes wrong, it will go 
wrong.
    But what I want to really say is that what you are seeing 
is a piece of property where people are victims of the 
situation here. What the BLM did was a survey in the 1960s. 
Houses--families were reared--were built, and people all of a 
sudden discovered when we have new technology to show that 
their properties weren't actually where they actually were. 
They were actually on the Forest Service.
    This involves two and a half acres, two and a half to three 
acres, and what we are looking at is trying to purchase that. 
So H.R. 1038 simply authorizes the Secretary of Agriculture to 
convey the parcels of land under dispute to a legal entity 
representing the majority of the landowners affected in this 
matter.
    The community of Mountainaire stands ready to raise the 
$20,000 required to buy the parcels back from the Secretary. In 
other words, my legislation presents a solution where all 
parties have skin in the game and everybody wins. I am also 
pleased to see the Administration testifying today in support 
of this legislation. This is common sense. This is getting 
people back to solution processes where they actually are 
empowered to make their own solutions.
    I thank the Committee for considering the legislation 
today, and I look forward to my colleagues to support this 
strong, common-sense measure to achieve justice for all 
parties. Thank you.
    Mr. Amodei [presiding]. As you can tell, I have got a lot 
of experience on this. I was also the guy in charge of your 
tape, so don't worry about that.
    [Laughter.]
    Mr. Amodei. Is there anything else that any of my 
colleagues on this particular panel want to do before we go 
into recess for the votes?
    [No response.]
    Mr. Amodei. Is there any objection to voting on the senior 
Member of the Republican membership from Nevada's bill right 
now since I am the junior one and he is the senior one? OK. Not 
much appetite for that, Joe.
    So we are going to be in recess until the conclusion of 
votes when we will come right back and start with the next 
panel. Thank you.
    [Recess.]
    Dr. Gosar [presiding]. This Committee will come back to 
order. If I could convene the second panel? Thank you very 
much. Sorry for the delay.
    First of all, I would like to introduce Mr. Gregory Smith, 
the Acting Deputy Chief of Staff of the U.S. Forest Service, 
five minute testimony. If you see the little light, if you get 
yellow, that means to speed it up, and red means to wind it 
down. So, with that, I will turn it over to Mr. Smith.

STATEMENT OF GREGORY SMITH, ACTING DEPUTY CHIEF OF STAFF, U.S. 
    FOREST SERVICE, UNITED STATES DEPARTMENT OF AGRICULTURE

    Mr. Smith. Thank you, Mr. Chairman. I am here to testify on 
six bills, and I will try to be brief about them.
    H.R. 1038. The Department supports H.R. 1038, a bill 
designated to correct an erroneous private survey on the 
Coconino National Forest in Arizona. Because of the erroneous 
survey, approximately 19 acres, totaling about 2.67 acres of 
National Forest System lands, now have structures built on 
them.
    Although the Forest Service has administrative authority to 
sell the land, the bill would provide a more quick and 
efficient resolution to the issue with all property owners at 
the same time. To ensure that approximate compensation and 
appropriate compensation of the land to be conveyed is 
recovered on behalf of the American taxpayers, an appraisal 
should be done consistent with Federal appraisal standards, and 
the homeowners would pay the appraised value.
    H.R. 1237. H.R. 1237 directs the Secretary to convey to the 
Trinity Public Utilities District of Trinity County, 
California, approximately 100 acres of land in the Shasta-
Trinity National Forest near Weaverville Airport in Trinity 
County in exchange for approximately 150 acres of private land 
known as the Van Duzen parcel within the boundaries of the Six 
Rivers National Forest. Additionally, to equalize the exchange, 
the utility district would also convey approximately 47 acres 
known as Sky Ranch parcel to the Bureau of Land Management.
    While we are supportive of the utilities district's desire 
to facilitate access to the Weaver Airport, the Department does 
not support H.R. 1237 as written because the Van Duzen parcel 
does not contain any unique or high quality recreational 
resource values. The acquisition would also create a private 
inholding within the Six Rivers National Forest containing a 
waste transfer station. Because there are other private parcels 
interspersed in the general area, the consolidation resulting 
from this exchange would not produce a manageable forest 
management benefit.
    Although the Department does not fully support the bill as 
written, we appreciate Congressman Herger's hard work and fully 
support his efforts to help the utility district. Therefore, we 
would like to work with the Committee, the Congressman and the 
utility district to identify parcels located within the 
boundaries of the Shasta-Trinity in hopes of assisting the 
utility district in meeting its needs.
    H.R. 2157. The Department supports H.R. 2157, which allows 
the Secretary through land exchange involving the conveyance of 
approximately 20 acres of intensely developed National Forest 
land located on the Inyo National Forest to accept acquisition 
of certain nonFederal lands in California lying outside the 
boundaries of the Inyo National Forest if those lands are 
determined to be desirable for National Forest purposes. In 
addition, the bill would allow the Secretary to accept cash 
equalization in excess of 25 percent because of the high value 
of the Federal parcels.
    H.R. 2947. The Department supports H.R. 2947, which would 
direct the Secretary to release the deeds and conditions of 
reversionary interest imposed on the use of approximately 25 
acres of National Forest System lands within the Superior 
National Forest. The land parcel is actually being used by Cook 
County as a seaplane base. Cook County Highway 8 also crosses 
parcels and provides public access to the airport as well as to 
the National Forest land.
    In the interest of working with our county partner, we 
support the release of the deed restrictions and reversionary 
interests in this case to resolve the county's technical 
contract issue so that maintenance can be performed on the 
portion of the county road that crosses the 25-acre land parcel 
to improve public safety.
    H.R. 3452. H.R. 3452 would direct the Secretary to sell at 
market value approximately 30 acres of National Forest System 
lands in the Uinta-Wasatch-Cache National Forest in Salt Lake 
City County to permit the construction of a ski lift to serve 
as a public access transportation interconnection between 
Solitude Mountain Resort and Canyon Ski Resort in the Wasatch 
Mountains.
    We recognize the importance of managing transportation 
along the Wasatch Front and we appreciate the efforts of the 
bill's proponents to address these issues. However, the 
Department does not support H.R. 3452 for several reasons: The 
SkiLink would pass through an inventory roadless area. Selling 
the parcel would create private inholdings in the National 
Forest. Furthermore, the watershed protection and other 
considerations, such as visual resources for the area, would be 
diminished.
    Also, if the land had not been used for 10 years alone, it 
would automatically revert back to the U.S. At a minimum, we 
would like the discretion for the Secretary in that we would 
not have an automatic trigger. In addition, several 
transportation studies earlier have been completed and there 
are several underway that might shed some light on a more 
suitable option to address this capacity concerning the Wasatch 
Front.
    Senate Bill 684. 684 would direct the Secretary of 
Agriculture to convey without consideration certain parcels of 
National Forest System land comprising two acres located within 
Uinta-Wasatch-Cache National Forest to the Town of Alta, Utah, 
for public purposes.
    While we are supportive of the town's desire to consolidate 
its municipal resources, the Department does not support it as 
written. However, again we are willing to work with the bill's 
sponsors, the Town of Alta and the Committee in hopes of 
assisting the town in achieving its desired consolidation of 
its multiple resources.
    Mr. Chairman, just to conclude my statement, I will be 
happy to answer any questions.
    [The prepared statements of Mr. Smith follow:]

Statement of Gregory Smith, Acting Deputy Chief of Staff, United States 
Department of Agriculture, on H.R. 1038, To Authorize the Conveyance of 
    Two Small Parcels of land within the boundaries of the Coconino 
  National Forest containing private improvements that were developed 
   based upon the reliance of the landowners in an erroneous survey 
                         conducted in May 1960

    Mr. Chairman Bishop and members of the Subcommittee, thank you for 
the opportunity to appear before you today to provide the Department of 
Agriculture's view on H.R. 1038, a bill designed to correct an 
erroneous, private survey on the Coconino National Forest in Arizona. I 
am Gregory Smith, Acting Deputy Chief of Staff of the United States 
Forest Service. The Department supports this bill.
    In 1960-61, privately contracted surveyors surveyed two sections of 
land in what is now known as the Mountainaire Subdivision, which 
largely abuts the Coconino National Forest. Both surveys were found to 
be inaccurate when the Bureau of Land Management conducted a survey in 
2007. The BLM survey correctly re-established the boundary of the 
National Forest System lands.
    Because of the erroneous private surveys, approximately 19 parcels 
totaling 2.67 acres of National Forest System land now have structures 
built on them. Although the Forest Service has authority under the 
Small Tracts Act (Public Law 97-465) to sell this land to the 
homeowners, H.R. 1038 would more quickly and efficiently resolve the 
issue with all property owners at the same time.
    Section 1(c) of the bill would provide for consideration in a fixed 
amount of $20,000. To ensure that appropriate compensation for the land 
to be conveyed is recovered on behalf of the American taxpayer, an 
appraisal should be done consistent with Federal appraisal standards 
and the homeowner would pay the appraised value. The bill should also 
provide that the homeowner should bear other administrative costs 
associated with the conveyance.
    I would be happy to answer any questions you may have.
                                 ______
                                 

Statement of Gregory Smith, Acting Deputy Chief of Staff, United States 
Department of Agriculture, on H.R. 1237, To provide for a land exchange 
     with the Trinity Public Utilities District of Trinity County, 
   California, involving the transfer of land to the Bureau of Land 
Management and the Six Rivers National Forest in exchange for National 
Forest System land in the Shasta-Trinity National Forest, and for other 
                               purposes.

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today and provide the Department of 
Agriculture's views regarding H.R. 1237. The bill would provide for a 
land exchange with the Trinity Public Utilities District (TPUD) of 
Trinity County, California, involving the transfer of land to the 
Department of the Interior, Bureau of Land Management (BLM) and the Six 
Rivers National Forest in exchange for National Forest System land in 
the Shasta-Trinity National Forest, and for other purposes.
    H.R. 1237 directs the Secretary of Agriculture to convey to the 
TPUD certain parcels of National Forest System (NFS) land comprising 
approximately 100 acres in the Shasta-Trinity National Forest near the 
Weaverville Airport in Trinity County, in exchange for approximately 
150 acres of private land, known as the Van Duzen parcel, within the 
boundaries of the Six Rivers National Forest. Additionally, to equalize 
the exchange, the TPUD also would convey approximately 47 acres, known 
as the Sky Ranch parcel, to the Bureau of Land Management.
    While supportive of the TPUD's desire to facilitate access to the 
Weaverville Airport, the Department does not support H.R. 1237 because 
the land to be conveyed to the Secretary of Agriculture does not 
possess any recreation or natural resources values that would 
contribute to the management of the NFS. The consolidation resulting 
from this Federal acquisition will not produce measurable forest 
management benefits as there are other private parcels interspersed in 
the general area. In addition, the Van Duzen parcel is directly 
adjacent to a private parcel that is currently operated as a waste 
transfer station. There is no provision in the legislation to ensure 
that any hazardous conditions associated with these lands or other 
activities could be identified and remediated if discovered before the 
United States would acquire the Van Duzen parcel.
    The Department would like to work with TPUD and the committee to 
identify parcels located within the boundaries of the Shasta-Trinity 
National Forest that would provide for the needs of the TPUD as well as 
the needs of the Shasta-Trinity National Forest.
    For example, the Mt Eddy parcels located near the summit of Mt. 
Eddy, the highest point in Trinity County, the highest point in the 
Klamath Ranges, and the ninth most prominent peak in the State of 
California more appropriately meet the needs of the Shasta-Trinity 
National Forest. The summit of Mt. Eddy offers one of the most scenic 
views in northern California, looking east to Mt. Shasta, west to the 
Trinity Alps and north across Shasta Valley to Oregon. Several high 
elevation alpine lakes and numerous alpine meadows are included with 
this proposed acquisition. The Mt. Eddy parcels have a number of unique 
geologic features and opportunities for study and public education. The 
possibility of acquisition presents an opportunity to preserve the high 
quality visual character of this area, protect critical wildlife and 
plant habitat by consolidating ecosystems, protect critical watersheds 
and provide outstanding recreation opportunities.
    Currently, the Mt. Eddy parcels create ownership fragmentation 
within the boundary of the Shasta-Trinity National Forest. There is a 
highly motivated and willing seller and a partner, the Trust for Public 
Land (TPL) that is working with the seller to secure this property 
until funding is available. These parcels have been identified in the 
Shasta-Trinity National Forest Land and Resource Management Plan as a 
high priority to acquire, and would provide the opportunity to increase 
the efficiency and effectiveness of natural resource management efforts 
and enhance recreation experiences by consolidating lands within the 
forest boundary.
    In addition to the land acquisition, the Department also recommends 
a provision in the legislation for the reservation of easements for all 
roads and trails across the 100-acre parcel of NFS lands to be conveyed 
that the Secretary considers necessary or desirable to provide for 
administrative purposes and to ensure public access to adjacent NFS 
lands.
    The BLM has advised the Forest Service that they would welcome the 
approximately 47 acres of Trinity County property as it would promote 
public access to the Trinity Wild and Scenic River (WSR) for recreation 
purposes, and restoration of riparian habitat along the WSR corridor. 
The parcel, known as the Sky Ranch parcel, lies between State Highway 
299 and BLM-managed land on the Trinity Wild and Scenic River. This 
area has been identified for acquisition in the Redding Resource 
Management Plan.
    Although the Department does not support H.R. 1237 as written, we 
are willing to work with the bill sponsors, the TPUD, the TPL, and the 
Committee, in hopes of assisting the TPUD in meeting its needs, as well 
as the needs of the Shasta-Trinity National Forest to improve 
recreation opportunities and provide further protection of valuable 
natural resources.
    I am happy to answer any questions you might have.
                                 ______
                                 

Statement of Gregory Smith, Acting Deputy Chief of Staff, United States 
Department of Agriculture, on H.R. 2157, To facilitate a land exchange 
  involving certain National Forest System lands in the Inyo National 
                    Forest, and for other purposes.

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to provide the Department of 
Agriculture's views regarding H.R. 2157, a bill to facilitate a land 
exchange involving certain National Forest System lands in the Inyo 
National Forest, and for other purposes.
    H.R. 2157 would allow the Secretary of Agriculture, in a proposed 
land exchange involving the conveyance of certain National Forest 
System land located within the boundaries of the Inyo National Forest, 
to accept for acquisition certain non-Federal lands in California lying 
outside the boundaries of the Inyo National Forest, if the Secretary 
determines that the acquisition of the non-Federal lands is desirable 
for National Forest System purposes. In addition, H.R. 2157 would allow 
the Secretary of Agriculture to accept a cash equalization payment in 
excess of 25 percent, which shall be deposited into the account in the 
Treasury of the United States, as established by the Sisk Act, to be 
made available to the Secretary for acquisition of land for addition to 
the National Forest System.
    The Department supports H.R. 2157 as it will facilitate the land 
exchange process by authorizing a cash equalization payment in excess 
of 25 percent, while not exempting the land exchange from all 
requirements and regulations of a land-for-land exchange, including 
provisions of the National Environmental Policy Act (NEPA).
    Mammoth Mountain Lodge Redevelopment LLC, commonly known as Mammoth 
Mountain Ski Area (MMSA), wishes to acquire 20 acres of National Forest 
System land in the Main Lodge area, currently managed as part of a Ski 
Area Term Special Use Permit, so it can redevelop aging lodging 
facilities, increase capacity, and develop employee housing and whole 
and fractional ownership condominiums. These latter plans are 
inconsistent with its Ski Area Term Special Use Permit.
    MMSA, with the assistance of Western Lands Group, has acquired or 
optioned 11 non-Federal parcels suitable for acquisition in the Inyo, 
Stanislaus, Plumas, and Eldorado National Forests for the proposed 
exchange. These parcels were selected by the respective National 
Forests based on priorities identified in their Forest's Land 
Acquisition Plans. At the request of the Inyo National Forest, MMSA 
optioned two Los Angeles Department of Water and Power (LADWP) parcels 
that are leased by the Forest Service as administrative sites. The 
southern parcel houses the Interagency Visitor Center near Lone Pine, 
California. The northern parcel is adjacent to the White Mountain 
Ranger Station in Bishop, California, and serves as a storage area for 
construction materials, recreation supplies and larger maintenance 
trucks. Legislation is needed to acquire the LADWP parcels because they 
are located outside the declared boundary of the Inyo National Forest.
    In addition, because of the expected high value of the Federal 
parcel, estimated to range from $10--$20 million, the value of the 
Federal and non-Federal lands are not equal, so legislation is needed 
to authorize the Forest Service to accept cash equalization in excess 
of the limit of 25 percent of the value of the Federal land as provided 
in the Federal Land Policy and Management Act (FLPMA). The Department 
recommends, however, the legislation be modified to clarify that funds 
deposited in the Sisk Act account be made available to the Secretary 
without further appropriation to acquire land in the State of 
California as additions to the National Forest System.
    I am happy to answer any questions you might have.
                                 ______
                                 

Statement of Gregory Smith, Acting Deputy Chief of Staff, United States 
  Department of Agriculture, on H.R. 2947, a bill to provide for the 
   release of the reversionary interest held by the United States in 
      certain land conveyed by the United States in 1950 for the 
         establishment of an airport in Cook County, Minnesota.

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to provide the Department of 
Agriculture's views regarding H.R. 2947, a bill to provide for the 
release of the reversionary interest held by the United States in 
certain land conveyed by the United States in 1950 for the 
establishment of an airport in Cook County, Minnesota.
    H.R. 2947 would direct the Secretary of Agriculture to release, 
without consideration, and through deed, the conditions imposed on the 
use of approximately 25.51 acres of land on Devil Track Lake within the 
Superior National Forest. The parcel was conveyed to the State of 
Minnesota in 1950 on the conditions that it be used for the 
establishment of a public airport in Cook County, Minnesota (the 
County). The bill would release the reversionary interest held by the 
United States pursuant to the original conveyance in 1950, which states 
that if the land is no longer used for a public airport, it will revert 
back to the United States.
    The Department supports H.R. 2947. The land parcel is currently 
included in the County's Airport Layout Plan (ALP) and is actively 
being used as a seaplane base. Cook County Highway 8 (Devil Track Road) 
crosses the parcel and provides public access to the airport as well as 
to National Forest System land. The road requires maintenance and 
improvement for public safety purposes due to increased traffic in the 
area. Because of State law relating to contract maintenance, the County 
currently cannot perform significant maintenance on this portion of the 
County road without clear title to the land. In the interest of working 
with our County partner, we support the release of the deed 
restrictions and reversionary interest in this case to resolve the 
County's technical contract issue so that maintenance can be performed 
on the portion of Devil Track Road that crosses the 25.51 acre land 
parcel to improve public safety.
    We understand that the County plans to continue use of the land 
parcel in its ALP for use as a seaplane base. Therefore, we believe 
that if the bill is enacted, future use of the land parcel and 
management of the area surrounding the parcel would not change.
    I am happy to answer any questions you may have.
                                 ______
                                 

Statement of Gregory Smith, Acting Deputy Chief of Staff, United States 
   Department of Agriculture, on H.R. 3452, Wasatch Range Recreation 
                            Enhancement Act

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to provide the Department of 
Agriculture's views regarding H.R. 3452, the Wasatch Range Recreation 
Enhancement Act.
    Section 3(a) of H.R. 3452 would direct the Secretary of Agriculture 
to sell, at market value, approximately 30 acres of National Forest 
System (NFS) land in the Uinta-Wasatch-Cache National Forest in Salt 
Lake County, Utah. The purpose of the sale is to permit the 
construction of a ski-lift, gondola or tramway to serve as a public 
access transportation interconnection between Solitude Mountain Resort 
and the Canyons Ski Resort in the Wasatch Mountains. Solitude Mountain 
Resort is built on NFS land and operates under a 40-year special use 
permit. The transportation alternative is called the ``SkiLink.''
    The land sale would be subject to compliance with the National 
Environmental Policy Act (NEPA) and other applicable laws. However, 
once conveyed, the owner could make any use of the land and would not 
be subject to any restrictions on use. Proponents cite a report 
asserting that the SkiLink will cut down on ski-season vehicle traffic 
between the two resorts by as much as 18,000 vehicles. The Forest 
Service has been unable to view the report on the SkiLink proposal and 
its conclusions are in dispute among local interested parties.
    While we appreciate the desire of the bill's proponents to reduce 
traffic between the two resorts, the Department does not support H.R. 
3452. The SkiLink would pass through an inventoried roadless area. 
Selling the parcel will create a private inholding in the National 
Forest between two resorts, one of which is built on public land, which 
is inconsistent with efforts to consolidate ownership within forest 
boundaries. Furthermore, watershed protection and other considerations, 
such as the visual resources for the area would be diminished.
    Section 3(c) of the bill would require an appraisal to be completed 
no later than six months after enactment of the Act. Six months is not 
enough time to complete an appraisal to Federal standards. Even when 
expedited, appraisals take 12 to 18 months. Section 3(d) provides for 
the return of the sold land to the Forest Service if the land has not 
been used for a period of 10 years or longer. Section 3(d) would 
provide the Secretary with the option to revert the land back to the 
United States if the land is not used for the purpose of the 
conveyance. Reversionary interest in conveyed land puts the agency in 
the position of policing the use of private land. At a minimum, any 
reversion should be at the discretion of the Secretary and not 
automatically triggered after 10 years.
    Section 3 (e) of the bill would direct the Secretary to complete 
all actions that may be required under various laws, including NEPA. 
However, since the legislation requires the Secretary to convey the 
land by sale, the extent to which NEPA would apply is unclear. NEPA 
only applies to those matters over which the agency exercises 
discretion. NEPA may apply, for example, if the Forest Service has 
discretion to determine the precise area to be conveyed or to establish 
terms and conditions for use of the property.
    I am happy to answer any questions you may have.
                                 ______
                                 

Statement of Gregory Smith, Acting Deputy Chief of Staff, United States 
Department of Agriculture, on S. 684, To provide for the conveyance of 
           certain parcels of land to the Town of Alta, Utah

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today and provide the Department of 
Agriculture's views regarding S. 684, to provide for the conveyance of 
certain parcels of land to the town of Alta, Utah. S. 684 would direct 
the Secretary of Agriculture to convey, without consideration, certain 
parcels of National Forest System (NFS) land comprising approximately 
two acres located in the Uinta-Wasatch-Cache National Forest to the 
Town of Alta, Utah, for public purposes. While supportive of the Town's 
desire to consolidate its municipal resources, the Department does not 
support S. 684.
    The Forest Service can convey the parcel under current authorities 
through the Townsite Act of July 31, 1958 (16 U.S.C. 478a). The 
Townsite Act authorizes communities to acquire up to 640 acres of NFS 
land in order to serve community objectives, and requires payment to 
the United States of the market value of the federal land. Similarly, 
the lands could be made available by exchange for equal value 
consideration.
    It is longstanding policy that the United States receive market 
value for the sale, exchange, or use of NFS land. This policy is well 
established in law, including the Independent Offices Appropriation Act 
(31 U.S.C. 9701), section 102(9) of the Federal Land Policy and 
Management Act (43 U.S.C. 1701), as well as numerous land exchange 
authorities. Based on recent land sales in the Alta area, we estimate 
the value of the lands proposed to be conveyed under S. 684 to be 
approximately $500,000 per acre.
    Finally, S. 684 would require the Town of Alta to cover the Federal 
land survey costs associated with the proposed conveyance. It also 
should provide that the Town should bear other administrative costs 
associated with the conveyance.
    Although the Department does not support S. 684 as written, we are 
willing to work with the bill sponsors, the Town of Alta, and the 
Committee, in hopes of assisting the Town in achieving its desired 
consolidation of municipal resources.
    This concludes my statement and I would be happy to answer any 
questions you might have.
                                 ______
                                 
    Dr. Gosar. Mr. Smith, that was amazing that you got through 
all those in that timeframe.
    I would like to introduce our next guest, Ms. Peggy O'Dell, 
the Deputy Director from the National Park Service. Ms. O'Dell?

   STATEMENT OF PEGGY O'DELL, DEPUTY DIRECTOR, NATIONAL PARK 
            SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Ms. O'Dell. Thank you, Mr. Chairman and Mr. Ranking Member 
Grijalva. Thank you for the opportunity to appear before your 
Subcommittee today to present the Department of the Interior's 
views on four bills on today's agenda. Three of these are 
National Park Service bills and one is a Bureau of Land 
Management bill.
    Accompanying me today is Mr. Bill Falsey, Deputy Chief of 
Staff for the Bureau of Land Management. He is available to 
answer any questions that you might have on H.R. 2745. I would 
like to submit our full statement on these bills for the record 
and summarize the Department's position here.
    H.R. 2490 would direct the Secretary of the Interior to 
conduct a study of the Cascadia Marine Trail in Puget Sound, 
Washington, for potential addition to the National Trails 
System. The Department supports the bill with one amendment. 
The Cascadia Marine Trail is a nonmotorized water route 
approximately 2,500 miles long with small campsites placed on 
public lands. The trail begins near San Juan Island National 
Historical Park and passes through many coves and waterways 
south to Olympia, Washington.
    A study would look at the national significance and 
eligibility of the trail as well as the feasibility and 
suitability of designating it as a unit of the National Trails 
System. The study would focus on exploring recreational 
opportunities, defining historical aspects and establishing a 
working relationship with partners in order to identify land-
based facilities as required by the bill.
    H.R. 2504 would authorize the Secretary of the Interior to 
establish Coltsville National Historical Park in Hartford, 
Connecticut, after certain conditions are met. This park unit 
would preserve and interpret the important contributions to 
manufacturing technology by Samuel Colt and the industrial 
enterprise he founded in 1855. The Department supports the 
enactment of this legislation.
    Under H.R. 2504, the park unit could not be established 
until the Secretary is satisfied that adequate public access to 
the site and its financial viability are assured. The authority 
to review the financial resources of public and private 
property owners associated with the project is unprecedented in 
similar park establishment legislation. We believe that these 
conditions will assure the park is established only when the 
development is moving forward and the public will have the 
ability to learn about the manufacturing process that took 
place at the site.
    H.R. 2745 would amend the Mesquite Lands Act of 1986 in 
order to renew the exclusive right of the City of Mesquite, 
Nevada, to purchase certain public lands for development and 
allows for proceeds from land sales to be used to implement a 
habitat conservation plan for the Virgin River, also in 
Mesquite. The Department supports the goals of H.R. 2745, 
recognizing that it seeks to provide for the economic 
development needs of this community.
    H.R. 3222 would designate approximately 4,100 acres of land 
currently within the boundary of Olympic National Park as an 
addition to the existing Olympic wilderness. It would also 
designate approximately 11 acres of parkland as potential 
wilderness. Designation of these lands as wilderness and 
potential wilderness was included in the introduced version of 
H.R. 1162, a bill to provide the Quileute Indian Tribe tsunami 
and flood protection and for other purposes. Designation was 
intended to offset the removal of other lands from the 
wilderness preservation system in an agreement among all 
involved parties, including the Quileute tribe.
    During markup, the language now introduced as H.R. 3222 was 
removed from H.R. 1162. At that time, Members of this 
Subcommittee expressed both concern for its removal and a 
willingness to consider the wilderness provision as a 
standalone bill. The Department supports H.R. 3222.
    Mr. Chairman, this concludes my statement. I will be 
pleased to answer any questions.
    [The prepared statements of Ms. O'Dell follow:]

Statement of Peggy O'Dell, Deputy Director, National Park Service, U.S. 
Department of the Interior, on H.R. 2490, a Bill to Amend the National 
 Trails System Act to Provide for a Study of the Cascadia Marine Trail

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today and present the Department of 
the Interior view's on H.R. 2490, a bill to amend the National Trails 
System Act to provide for a study of the Cascadia Marine Trail.
    The Department supports H.R. 2490 with one amendment. However, we 
feel that priority should be given to the 37 previously authorized 
studies for potential units of the National Park System, potential new 
National Heritage Areas, and potential additions to the National Trails 
System and National Wild and Scenic Rivers System that have not yet 
been transmitted to Congress.
    H.R. 2490 would amend Section 5(c) of the National Trails System 
Act by directing the Secretary of the Interior (Secretary) to conduct a 
study of the Cascadia Marine Trail for consideration for inclusion in 
the National Trails System. As a part of the study, the Secretary would 
be required to coordinate with State and local governments and private 
entities in the preparation of the study of the Cascadia Marine Trail 
and to look at nearby sites of recreational, scenic, or historic 
significance that are not connected by the Cascadia Marine Trail. We 
estimate the cost of this study to be approximately $400,000.
    The Cascadia Marine Trail is a non-motorized water route within the 
Puget Sound in the State of Washington. The trail is approximately 
2,500 miles long with 55 small campsites placed on public lands. The 
trail begins near San Juan Island National Historical Park and passes 
through many coves and waterways south to Olympia, Washington. The 
Cascadia Marine Trail has been used for over five thousand years by 
Native Americans, early explorers and today's wind and hand-propelled 
watercraft enthusiasts. The Puget Sound is the second largest estuary 
in the continental United States and is home to populations of seals, 
bald eagles, orca whales and nearly 4 million humans living in the 
surrounding watershed area.
    The Cascadia Marine Trail has a long and significant history in the 
state of Washington with its designation as a National Recreation Trail 
in 1994; as a National Millennium Trail in 1999; and as an American 
Canoe Association Recommended Water Trail in 2005.
    A study produced by the National Park Service would not only look 
at the national significance and eligibility of the trail, but also its 
feasibility and suitability as a unit of the National Trails System. We 
envision the Cascadia Marine Trail study to focus on exploring 
recreational opportunities, defining historical aspects of the trail, 
and establishing methods for a working relationship with partners in 
order to identify facilities on adjacent lands that would contribute to 
the purposes of the trail.
    We recommend one amendment. The bill language states that the NPS 
may study connections to nearby sites of recreational, scenic or 
historic significance that are not connected by the Trail. We believe 
those sites should be evaluated as part of this study. Therefore, we 
propose the bill be amended on page 2, line 8, by striking ``may'' and 
inserting ``shall.''
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions you or other members of the subcommittee may have.
                                 ______
                                 

Statement of Peggy O'Dell, Deputy Director, National Park Service, U.S. 
   Department of the Interior, on H.R. 2504, To Establish Coltsville 
  National Historical Park in the State of Connecticut, and for Other 
                               Purposes.

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior regarding H.R. 2504, a bill to establish 
Coltsville National Historical Park in Hartford, Connecticut, and for 
other purposes.
    The Department supports enactment of H.R. 2504.
    H.R. 2504 would authorize the establishment of a new unit of the 
National Park System at Coltsville in Hartford, Connecticut. The bill 
would provide for several conditions to be met before the Secretary of 
the Interior (Secretary) may establish the park:
        1.  Donations of land or interests in land within the boundary 
        of the park have been accepted;
        2.  A written agreement donating at least 10,000 square feet of 
        space in the East Armory;
        3.  A written agreement ensuring future uses of land within the 
        historic district are compatible with the park; and
        4.  Financial resources of the owners of private and public 
        property within the boundary park are reviewed to ensure 
        viability.
    The legislation also authorizes agreements with other organizations 
for access to Colt-related artifacts to be displayed at the park and 
cooperative agreements with owners of properties within the historic 
district for interpretation, restoration, rehabilitation and technical 
assistance for preservation. It provides that any federal financial 
assistance would be matched on a one-to-one basis by non-federal funds.
    H.R. 2504 also provides for the establishment of a commission to 
advise the Secretary on the development and implementation of a general 
management plan for the unit. The advisory commission would terminate 
ten years after the date of enactment of the legislation unless 
extended for another ten years by the Secretary.
    The Secretary designated Coltsville Historic District a National 
Historic Landmark on July 22, 2008. The manufacturing complex and 
associated resources constitute the site of nationally important 
contributions to manufacturing technology by Samuel Colt and the 
industrial enterprise he founded in 1855--Colt's Patent Firearms 
Manufacturing Company. It includes, among other resources, the armories 
where firearms and other products were made, the home of Samuel and 
Elizabeth Colt, Colt Park, and housing used by factory workers.
    Samuel Colt is most renowned for developing a revolver design which 
revolutionized personal firearms. The Colt Peacemaker, a six-shot 
revolver, became known as ``the gun that won the West.'' Colt was a 
major innovator in the ``American System'' of precision manufacturing, 
replacing the practice of individually crafting each component of a 
product with the use of interchangeable parts. After his death in 1862, 
his wife Elizabeth owned and directed the manufacturing complex for 39 
years, becoming a major entrepreneur in an age when women rarely 
occupied positions of importance in manufacturing.
    During both World War I and World War II, the Colt Firearms Company 
was one of the nation's leading small arms producers and made vital 
contributions to U.S. war efforts. The company applied its 
interchangeable-parts techniques to a wide variety of consumer products 
and the Colt complex became an ``incubator'' facility for other 
inventors and entrepreneurs. Coltsville is also noteworthy as a fully 
integrated industrial community that includes manufacturing facilities, 
employee housing, community buildings, and landscape features that were 
built largely under the personal direction of Samuel and Elizabeth 
Colt. Colt, whose labor practices were advanced for their time, 
attracted highly skilled laborers to his manufacturing enterprise.
    Pursuant to Public Law 108-94, the Coltsville Study Act of 2003, 
the National Park Service (NPS) conducted a special resource study of 
the resources associated with the Coltsville Historic District. Based 
on Coltsville's National Historic Landmark designation in 2008, the 
study concluded that Coltsville meets the national significance 
criterion. An analysis of comparability to other units of the national 
park system and resources protected by others demonstrated that 
Coltsville is suitable for designation as a unit of the national park 
system. The study was unable, however, to conclude that Coltsville was 
feasible to administer at that time due to the lengthy duration of 
financial issues surrounding the site. In concert with the lack of 
feasibility, the study was also unable to determine the need for NPS 
management, or specifically what the NPS would manage.
    H.R. 2504 addresses concerns the Department expressed concerning 
financial issues and questions involving ownership and financing of the 
Coltsville properties. The special resource study did not conclude that 
the site absolutely failed to meet feasibility criteria or require NPS 
management, but rather that it did not meet the feasibility criterion 
with the circumstances present at the time of the study and that it was 
impossible to determine, at that time, the need for NPS management of 
the site. In both cases, the uncertainty of public access and financial 
viability of the developer of the privately owned portion of the site 
were at issue.
    Since the time of the study, much progress has occurred at 
Coltsville that holds significant promise for the future of the site 
and preservation of the resources. During a recent visit to the 
Coltsville property, the Secretary noted the progress made in the area 
since the study was completed, while stating that, ``Coltsville again 
promises to be an economic engine, producing jobs and spurring growth 
in the Hartford area.'' Significant re-development has already begun. 
Several of the buildings have been rehabilitated and are occupied as 
educational facilities, residential housing, and businesses. 
Negotiations are underway between the developer and the city on an 
agreement for the East Armory building, which would serve as the focal 
point for park visitors. We have been advised the plan has designated 
benchmarks for the project as well as projected funding for the 
development.
    Under H.R. 2504, the park unit could not be established until the 
Secretary is satisfied that adequate public access to the site and its 
financial viability are assured. The authority to review the financial 
resources of public and private property owners associated with the 
project is unprecedented in similar park establishment legislation. We 
believe that these conditions will assure the park is established only 
when the development is moving forward and the public will have the 
ability to learn about the manufacturing process that took place at the 
site. A 2008 Visitor Experience Study developed a range of visitor 
service alternatives identifying potential operating costs for a very 
minimal operation estimated at $720,000 to a more robust operation of 
$9.3 million. If a park were established, a comprehensive planning 
process would assess the actual needs for visitor services and 
staffing, further defining the park's operational budget. In addition, 
there could be significant Federal costs in providing financial 
assistance to restore or rehabilitate the properties, as authorized in 
Section 4(c)(1). All funding would be subject to NPS priorities and the 
availability of appropriations.
    Mr. Chairman, this concludes my testimony. I would be glad to 
answer any questions that you or other members of the subcommittee may 
have.
                                 ______
                                 

 Statement submitted for the record by the Bureau of Land Management, 
 U.S. Department of the Interior, on H.R. 2745, To Amend the Mesquite 
                           Lands Act of 1986

    Thank you for the opportunity to present the views of the 
Department of the Interior on H.R. 2745, which amends the Mesquite 
Lands Act of 1986 in order to renew the exclusive right of the City of 
Mesquite, Nevada, to purchase certain public lands for development, and 
allows for proceeds from land sales to be used to implement a habitat 
conservation plan for the Virgin River and any associated groundwater 
monitoring plan. The Department of the Interior supports the goals of 
the bill, however, we believe we can achieve the purposes of the bill 
administratively, such as through sales under the Federal Land Policy 
Management Act (FLPMA) or the issuance of an airport lease.
Background
    The Mesquite Lands Act of 1986 (PL 99-548) as amended by PL 104-
208, PL 106-113 and PL 107-282,has provided the City of Mesquite, a 
community located in eastern Clark County, Nevada, between Las Vegas 
and St. George, Utah, the exclusive right to purchase lands to its west 
for a replacement airport and related development. To date, the city 
has acquired approximately 7,700 acres of public lands from the BLM. 
These authorities expired on November 29, 2011.
    In addition to identifying lands for sale, the Mesquite Lands Act, 
as amended, provides that a portion of the proceeds from the sale of 
certain parcels be deposited in an account established under the 
Southern Nevada Public Land Management Act of 1998 (SNPLMA). It also 
provides that these funds would be available to pay for, among other 
things, the BLM's costs to convey land to the City of Mesquite and the 
development of a multispecies habitat conservation plan for the Virgin 
River, also in Clark County. The U.S. Fish and Wildlife Service, in 
cooperation with the BLM, has begun work on the plans for the Virgin 
River. These authorities also expired on November 29, 2011.
H.R. 2745
    H.R. 2745 renews until November 29, 2020, the City of Mesquite's 
exclusive right to purchase parcels of public lands identified in the 
PL 106-113 amendment to the Mesquite Lands Act, which are near lands 
already acquired by the City. It also allows for the proceeds from 
previous land sales to Mesquite to be used to implement a multispecies 
habitat conservation plan for the Virgin River in Clark County and any 
associated groundwater monitoring plan. It also extends the withdrawal 
of the lands from all forms of location, entry and appropriation under 
the public land laws, including mining laws, and from operation of 
mineral leasing and geothermal leasing laws, subject to valid existing 
rights.
    The BLM supports the bill and its goal of providing for the 
economic development needs of Mesquite, Nevada. Some of the lands that 
may be acquired through enactment of the bill have been identified for 
a proposed replacement airport and related development. The legislation 
will provide additional time for the Federal Aviation Administration 
(FAA) to complete an environmental evaluation under the National 
Environmental Policy Act for the replacement airport and to identify 
mitigation measures, if necessary. The BLM is working with the FAA and 
the Nevada State Historic Preservation Office to develop appropriate 
measures to mitigate potential impacts to the Old Spanish National 
Historic Trail as a result of the proposed replacement airport. The 
additional time provided by this legislation will aid this effort.
Conclusion
    That concludes our prepared testimony in support of H.R. 2745. We 
would be glad to answer your questions.
                                 ______
                                 

Statement of Peggy O'Dell, Deputy Director, National Park Service, U.S. 
 Department of the Interior, on H.R. 3222, a Bill to Designate Certain 
  National Park System Land in Olympic National Park as Wilderness or 
             Potential Wilderness, and for Other Purposes.

    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the Department of the Interior's views on H.R. 3222, a 
bill to designate certain National Park System land in Olympic National 
Park as wilderness or potential wilderness, and for other purposes.
    The Department supports H.R. 3222. The legislation would designate 
approximately 4,100 acres of land currently within the boundary of 
Olympic National Park as additions to the existing Olympic Wilderness. 
It would also designate approximately 11 acres as potential wilderness.
    On October 5, 2011, the Committee on Natural Resources reported 
H.R. 1162, a bill to provide the Quileute Indian Tribe tsunami and 
flood protection, with an amendment that deleted the wilderness 
designation section of the legislation. The wilderness designation 
proposed by H.R. 3222 is the same wilderness designation that was 
originally found in H.R. 1162. While the Department is very supportive 
of the need for providing the Quileute Tribe with land to relocate its 
housing, offices, and school outside of the tsunami and flood zones, 
the deletion of the wilderness provisions of the carefully balanced 
agreement in H.R. 1162 was unfortunate.
    On September 15, 2011, the Department expressed its support for 
H.R. 1162 at a Subcommittee on National Parks, Forests and Public Lands 
hearing. We noted that the Olympic National Park lands to be 
transferred to the Tribe are 275 acres of elevated ``uplands'', of 
which approximately 220 acres are designated as wilderness, and are 
located in the park but adjacent to the current reservation's southern 
boundary. The lands would be transferred in trust to the United States 
for the benefit of the Quileute Tribe and the boundaries of the 
reservation and the park would be changed to accommodate the transfer. 
This transferred upland tract would allow for relocation of tribal 
buildings outside of the tsunami and flood zones. However, this loss of 
prime wilderness land was to have been offset by the designation of 
other lands as wilderness in an agreement among all involved parties 
including the tribe.
    H.R. 3222 would designate approximately 4,100 acres along Lake 
Crescent as wilderness. The wilderness boundary along the lake would be 
set back a sufficient distance to allow management of the historic 
World War I Spruce Railroad grade as the Olympic Discovery Trail, and 
to allow for operation and maintenance of the existing county road. 
Another parcel of approximately 11 acres in Boulder Creek would be 
designated as potential wilderness. When conditions in the Boulder 
Creek Addition are no longer incompatible with the Wilderness Act, and 
notification of such has been published in the Federal Register, the 
potential wilderness will become designated wilderness. The Department 
agrees that tsunami and flood protection for the Quileute tribe is an 
important goal, as is resolution of its long-standing boundary 
concerns. Wilderness protection is also an important goal. This bill, 
together with H.R. 1162, represents an appropriate way to accomplish 
these objectives.
    Mr. Chairman, this concludes my statement. I would be pleased to 
respond to any questions you or the other members of the subcommittee 
may have.
                                 ______
                                 
    Dr. Gosar. Thank you very, very much.
    I would like to introduce now Mr. Michael Jensen, a 
councilman from Salt Lake County Council. Thank you.

                 STATEMENT OF MICHAEL JENSEN, 
              COUNCILMAN, SALT LAKE COUNTY COUNCIL

    Mr. Jensen. Thank you, Mr. Chairman, Mr. Ranking Member. It 
is an honor to be here. You have my written testimony that I 
would like to have for the record.
    I am here representing myself as a member of the Salt Lake 
County Council. As a government entity, it has long been the 
responsibility of the county for Big and Little Cottonwood 
Canyons relating to their governance, planning and zoning and 
permitting. Salt Lake County has long sought to protect and 
preserve those canyons and the other canyons in the county.
    We all can agree that we need to protect and help preserve 
the canyons in the watershed. The differences are a matter of 
perspective of how we go about doing the protecting and 
preserving. I think we can do it in a reasonable, responsible 
and practical manner.
    There is a study that was concluded in September of 2010, 
Mr. Chair, that I would like to put into the record as well 
that was conducted by Salt Lake County, along with others, the 
State of Utah, Salt Lake City, the Town of Alta, the Forest 
Service, the Utah Department of Transportation, the Utah 
Transit Authority and Envision Utah. It was completed and did a 
visioning process and published the results in this 64-page 
study that was called Wasatch Canyons Tomorrow.
    [The study submitted for the record by Mr. Jensen has been 
retained in the Committee's official files.]
    Mr. Jensen. A few points that I would like to make from 
that study and cite. On page 1, it talks about how the Uinta-
Wasatch-Cache National Forest is among the five most visited 
forests in the nation. On page 5, it discusses that the 
recreation visits to the Wasatch Mountains will likely double 
in the next 30 to 40 years.
    Page 32 discusses a scenario, which they call Scenario E, 
in which aerial trams would connect Big Cottonwood Canyon, 
Little Cottonwood Canyon and Park City, and 58 percent of the 
respondents that participated in the study were favorable to 
those aerial trams. On page 45, Big and Little Cottonwood 
Canyons are home to four world-class ski areas. Future 
transportation plans should embrace these critical economic 
drivers. Transportation approaches that harm these businesses 
negatively impact the state's economy and its quality of life.
    Page 45. While private vehicle access is convenient, the 
impacts on our reliance on single-occupant vehicles is 
beginning to take its toll, especially in the canyons. Consider 
this. Many canyon roads are near capacity. The canyons offer 
limited parking. Runoff of oil and other automotive fluids 
degrade the streams. There are frequent collisions between 
automobiles and wildlife. Bicycle/car conflicts are growing, 
and the air quality along the Wasatch Front is among the worst 
in the Nation during the winter months. A balanced 
transportation study is needed to help maintain and preserve 
the character of the canyons.
    All of those were from the study called the Wasatch Canyons 
Tomorrow. So from this we can derive that the canyons are 
already being used at high levels, they are projected to double 
the recreational visits over the next 30 to 40 years, the 
existing transportation systems up there are taxed, future 
transportation plans need to be balanced and look at 
alternative modes, we need to embrace the transportation needs 
of the canyon ski resorts, all while trying to protect and 
preserve the character of the canyons.
    After looking at this study, I think that the SkiLink 
proposal which H.R. 3452 would enable can reasonably and 
responsibly and practically address the concerns and the needs 
that were addressed in the study. The study even offered the 
Scenario E, which is connecting the canyons with trams.
    From my perspective, there are three things. What this 
does, this proposal helps efficiently and effectively maximize 
the existing development of the ski areas. We are not putting 
in new runs. We are not building a road. We are not building a 
trail. What they propose to do is do a transportation 
connection between two resorts.
    This bill would enable them to do that. It would take 
vehicles off the road, and then we have the private sector help 
us with our funding problems of transportation long-term. You 
guys don't have money. The state doesn't have money. The local 
county and cities don't have the money to continuously upgrade 
the transportation infrastructure. This would be done by 
private means, and so I would urge your support of H.R. 3452, 
sir.
    [The prepared statement of Mr. Jensen follows:]

Statement of Michael H. Jensen, Salt Lake County Council, on H.R. 3452, 

            Wasatch Range Recreation Access Enhancement Act

    Chairman Bishop, Congressman Grijalva, and members of the 
subcommittee, thank you for the opportunity to testify in support of 
the Wasatch Range Recreation Access Enhancement Act (H.R. 3452). I am 
Michael H. Jensen and have served as a member of the Salt Lake County 
Council since first elected in 2000. Representing Salt Lake County 
Council District Two, I have served three terms as Chairman of the Salt 
Lake County Council. I also serve on the following boards; the Salt 
Lake County Redevelopment Agency, the Central Utah Water Conservancy 
District, the Salt Lake County Council of Governments and the Wasatch 
Front Regional Council. On the Wasatch Front Regional Council as well 
as on the Central Utah Water Conservancy District, I serve as the Chair 
of the Board of Trustees.
    The Wasatch Range Recreation Access Enhancement Act would 
facilitate the construction of a two-mile gondola known as ``SkiLink'' 
connecting the Canyons Ski Resort in Park City, Utah with the Solitude 
Mountain Resort in Big Cottonwood Canyon. The linkage of the Wasatch 
Front to the Wasatch Back will enable skiers and snowboarders to have 
access to 6,000 acres of existing ski terrain making the Utah ski 
experience the most unique and diverse in the United States.
    According to the 2010 Utah Economic Report to the Governor, Utah's 
skiing opportunities have attracted 4 million skier visits annually 
since 2005, despite the economic downturn. The Utah Ski industry is an 
economic driver that has a positive ripple effect across multiple 
industries and regions in Utah. It is anticipated that the SkiLink 
project will build on that popularity and add dollars to the economy, 
create new jobs and increase tax revenue. According to a recent 
economic study, SkiLink will infuse $ 51 million into the Utah economy 
in its first year and provide $3,000,000 in increased tax revenue. When 
it opens, SkiLink is expected to attract 75,000 people. To date, out-
of-state skiers add around $1.3 billion to the Utah economy supporting 
around 20,000 jobs. The addition of SkiLink will only enhance economic 
opportunities by adding 500 more jobs in Utah, something badly needed 
during recessionary times.
    It is imperative that we balance Utah's transportation and 
environmental needs with the growth of Utah's tourism industry. H.R. 
3452 provides a unique solution and immediate benefit to our 
transportation issues. The Wasatch Front population is expected to 
double in the next 30 years and skier visits are expected to continue 
to grow by at least two percent per year. This will require more than 
just increasing capacity on canyon roadways. As a county council 
member, I share with my colleagues the responsibility to improve 
transportation in our county canyons. Ski Link is not a final solution 
but it is a right first step. SkiLink will help to improve the air 
quality and transportation challenges we face as Utah continues to 
grow.
    Some might argue that SkiLink should be put on hold until a 
comprehensive, holistic study has been make of the broader 
transportation issues facing all of Utah's ski resorts. There have 
already been several studies of ski resort interconnections and 
transportation alternatives. These Interconnect and Canyon 
transportation studies date back over two decades starting with a final 
report of a Governor's task force from 1986. There are other solutions, 
in addition to SkiLink that also deserve review including a cog rail 
line proposed by the Utah Transit Authority to Snowbird and Alta up 
Little Cottonwood Canyon. Because of great cost, these solutions are 
far into the future.
    There have already been multiple studies...over three decades. It's 
time to do something.
    Some argue that there will be a negative environmental impact to 
the surrounding land and watershed environment. The actual design of 
SkiLink as a gondola or tram is the least environmentally invasive 
option while maintaining the natural landscape. During construction, 
Utah's ski resorts deploy the best management practices (BMP) so there 
is no impact to the surrounding watershed environment. Water quality 
records clearly show that lifts have been successfully developed in 
adjacent areas with similar slope, soil and vegetation with no adverse 
impact to water quality. To further insure that these protections are 
followed, the SkiLink project will be subject to compliance with 
appropriate federal, state and local permitting requirements.
    This legislation provides numerous economic, transportation and 
environmental benefits. I appreciate the opportunity to testify in 
support of H.R. 3452 and will be happy to answer any questions.
                                 ______
                                 
    Dr. Gosar. Thank you. And the report will be noted into the 
record.
    Mr. Jensen. Thank you.
    Dr. Gosar. I would like now to introduce Mr. Michael Goar, 
Managing Director for the Canyons Resort. Mr. Goar?

          STATEMENT OF MIKE GOAR, MANAGING DIRECTOR, 
                       THE CANYONS RESORT

    Mr. Goar. Thank you, Chairman, Ranking Member Grijalva. 
Thank you very much for the opportunity. I would also like to 
thank Chairman Bishop and Congressman Chaffetz for introduction 
of the Wasatch Range Recreation Access Enhancement Act. I also 
want to thank Utah Senators Hatch and Lee for sponsoring 
companion legislation in the U.S. Senate.
    As noted, I work for Canyons Resort. We employ 2,000 
workers in the State of Utah. We are the largest ski and 
snowboard resort in Utah and one of the four largest in the 
United States. Our proposal to connect the resorts is for the 
purpose of economic growth and transportation. The studies that 
we have done to date demonstrate that there is significant 
economic growth opportunity.
    Tourism for the State of Utah is one of our strongest 
growth sectors. It is an opportunity for us to develop 
increased winter tourism with minimal impact. Many of the 
opponents to SkiLink will speak about water quality, watershed. 
There are challenges to a number of the reports that we have 
submitted by those that oppose SkiLink. What I would like to 
say about the water quality and watershed issue is it should be 
of utmost importance. It is. It is what we all are focused on.
    SkiLink can be built without any degradation to water 
quality or the watershed. There are four resorts in the very 
watershed that we are talking about that have been developing 
lifts and other infrastructure for over 60 years with no 
degradation to water quality. In fact, over that period of time 
water quality has improved.
    The economic opportunity as well is quite significant. The 
first year of operation of SkiLink will create 500 permanent 
jobs through winter tourism in the businesses and services that 
support winter tourism, $50 million in additional revenue to 
winter tourism, which already operates at $1.25 billion of 
annual revenue to our state, and it is a tremendous 
opportunity, one that we certainly should not miss.
    On the other environmental issues, one issue that certainly 
has come to the forefront from the beginning of this proposal, 
and that is the impact to other users, specifically back 
country skiers. This lift by its design would not add any users 
to the back country. The termination points of the gondola is 
at Solitude Mountain Resort and Canyons Resort, with no 
intermediate exit points, no impact to the back country skiers, 
no additional users into the back country.
    And finally on the transportation issue I would like to say 
that it seems unusual that a gondola would not be considered 
transportation. Roads and the impacts of roads, tunnels, 
trains, all meaningful and important modes of transportation in 
our community and someday in our canyons perhaps, but this is a 
tremendous first step in creating alternative transportation 
modes for the users in Big and Little Cottonwood Canyon.
    Gondolas are used all over the world for transportation, 
and I can think of no better application than this one. It will 
take cars off the road. There is no question. The debate may be 
how many cars can be taken off the road, but whether it is 100 
or 1,000, every car we take off the road is a benefit and is a 
win for all of us.
    I thank you for the opportunity to speak today, and I am 
available for any questions.
    [The prepared statement of Mr. Goar follows:]

 Statement of Michael Goar, Managing Director, The Canyons Ski Resort, 
    Park City, Utah, on H.R. 3452, Wasatch Range Recreation Access 
                            Enhancement Act

    Chairman Bishop, Congressman Grijalva, and members of the 
subcommittee, my name is Mike Goar and I serve as the Managing Director 
of Canyons Ski Resort (Canyons). Canyons is the largest single ski and 
snowboard resort in Utah and is one of the five largest ski resorts in 
the United States. Canyons is owned by Talisker Corp., which employs 
2,000 people in its Utah operations. I want to thank Chairman Bishop 
and Cong. Chaffetz for introducing the Wasatch Range Recreation Access 
Enhancement Act (H.R. 3452). I also want to thank Utah's Senators Hatch 
and Lee for sponsoring companion legislation in the United States 
Senate.
    Thank you for giving me the opportunity to express my support for 
the bill and explain its purposes before this Subcommittee.
    The Wasatch Range Recreation Access Enhancement Act would allow 
Canyons to purchase for fair market value 30.3 acres of federally owned 
land that is managed by the Forest Service. That purchase will enable 
the construction of a two-mile, 8-passenger gondola or tram known as 
``SkiLink.'' This legislation offers an exciting addition to Utah's ski 
experience as it connects the Wasatch Front with the Wasatch back ski 
resorts. Specifically SkiLink is a direct transportation-only option 
for skiers between Canyons and Solitude Mountain Resorts. The gondola 
would not deposit skiers on the high ridge and would not in any way 
interfere with dispersed recreation like backcountry skiing, hiking and 
mountain biking.
    The two-mile corridor alignment, which the bill authorizes for 
sale, has the least impact on the surrounding land and watershed 
environment. Currently, the 30.3 acres of Forest Service land 
identified in the bill is sandwiched between several much larger 
private land parcels that are already owned by Canyons and Solitude. 
The 30.3 acres have not been identified by the Forest Service as 
proposed wilderness or as needing special federal protection. SkiLink 
would be constructed using the best management practices (BMP) so there 
is a low impact to the surrounding watershed environment. The use of 
helicopters for concrete placement and tower installations creates a 
minimally invasive construction technique. Canyons would use the very 
latest, proven design and construction mitigation methods. Intelligent 
phasing and logistics to minimize use of ground-based equipment will be 
utilized and management and operating procedures will tread lightly on 
the natural landscape. Finally, the riparian corridor along Big 
Cottonwood Creek will be protected through established design, 
permitting and best construction practices to avoid, minimize, or 
mitigate any anticipated impacts on wetland or stream functions. Over 
the past two construction seasons, the Canyons has built three separate 
lifts on private lands using these best practices method of 
construction. We know how to do it right.
    H.R. 3452 will produce numerous regional transportation and 
environmental benefits by connecting these two resorts in Summit County 
and Big Cottonwood Canyon. On busy ski days, there are 43,200 skiers at 
the Wasatch Front ski areas; 53 percent are visitors to the Wasatch 
Front and Back. Generally, visitors ski at the resort where they are 
staying, but about 20 percent of the time, they ``roam'' to other 
resorts. SkiLink would reduce the need for ``roaming'' skiers to travel 
on canyon roadways.
    SkiLink is not intended to be the comprehensive transportation 
solution to the problem of ski resort access, but it does offer 
immediate traffic benefits. The idea of connecting all of Utah's major 
ski resorts with trains or high-alpine roads has been discussed and 
studied for decades. The larger transportation options, are very costly 
and have significant environmental and permitting hurdles to overcome. 
SkiLink is a unique and simplified approach. On its own, this project 
is expected to decrease traffic by as much as 10% on a peak ski day 
which translates to 18,000 cars per year. Approximately 1 million fewer 
miles will be driven per year between Summit and Salt Lake Counties. 
Also, 1 million fewer pounds of greenhouse gases would be realized.
    This bill will create the most unique interconnected ski network in 
the United States and enhance the economic opportunities for the 
tourism and hospitality industries in Utah. I appreciate the 
opportunity to testify in support of this bill. I am submitting for the 
record letters of support from Ski Utah and three reports that outline 
the environmental, economic, and transportation benefits of SkiLink. 
Again, I thank you for the opportunity to be here today and will be 
happy to answer any questions.
                                 ______
                                 
    Dr. Gosar. Thank you, Mr. Goar.
    And I apologize, Mayor, but we are going to put you in the 
role of closer from this triad. So I would like to introduce 
Mayor Ralph Becker from Salt Lake City, Utah. Mayor?

               STATEMENT OF RALPH BECKER, MAYOR, 
                      SALT LAKE CITY, UTAH

    Mr. Becker. Thank you, Mr. Chairman. Mr. Chairman, thank 
you, Ranking Member Grijalva, Members of the Committee. Just by 
way of background, I am a planner and a lawyer. I was a 
consultant for more than 20 years and continually through that 
work as a consultant worked for all levels of government, all 
sectors really in the economy, in this very area of the Wasatch 
Canyons before I was elected mayor.
    The Wasatch Canyons as we call them or Wasatch Mountains 
east of Salt Lake City are of crucial, critical importance to 
those of us on the Wasatch Front both for watershed where Salt 
Lake City's primary responsibility is to provide water supply 
to more than half of the million people who live in the Salt 
Lake Valley and for a multitude of users summer and winter. It 
is also, as has been mentioned, one of the most heavily used 
areas of the National Forest System. It has the most unique 
element of being immediately proximate to a major urban area. 
It is a fragile environment and has amazingly provided for 
coexistence of many users now for decades.
    Wasatch Canyons is also a place where there has been close 
cooperation and public engagement on decisions for decades. The 
Forest Service has long time been a partner with Salt Lake 
County and with ski areas and environmental groups and the 
multiple users. Like Salt Lake City, you have heard from the 
Forest Service, and Salt Lake County oppose this legislation. 
We are the entities of primary jurisdiction here.
    This legislative proposal would sell public land to the 
benefit of one user to the exclusion of the public. It would 
bypass a public process and meaningful vetted environmental 
analysis. It would set precedent that public land long 
dedicated and used by the public and for drinking water supply 
can be sold. It would override local interests and policies in 
the Wasatch Canyons as they exist today, and it would prevent 
any opportunity to make decisions carefully, with full public 
participation and with a goal of reaching a consensus for all 
of the users and for protection of the resources.
    It is of enormous concern to those of us who have 
responsibility for the Wasatch Canyons for water supply, to 
look out for the many users and to protect a very fragile 
environment, given the amount of use, that we not bypass the 
environmental reviews that need to be done, the public 
participation that needs to be done and the ability for all of 
us who are responsible locally, whether that is the Forest 
Service local offices or those of us in local government, to 
participate and really to try to reach consensus on decisions.
    I recognize and appreciate, Congressman Bishop, that this 
is a hearing and we are at the very first stage of a proposed 
piece of legislation, and regardless of the alarm that this 
legislation has set off in my community and among many along 
the Wasatch Front, Congressman Bishop reminded me how early we 
are in this process and that he would include us in a 
conversation about the future of this legislation.
    I very much look forward to working with all of you on the 
Committee and Congressman Bishop as well as Congressman 
Matheson, who represents this area where the land would be sold 
and opposes it, to find a solution that reflects a consensus 
that protects our critical environmental needs and watershed 
needs in these canyons, that recognizes the needs of the 
various users and balances them and that protects these canyons 
and these mountains today and for future generations as has 
been passed on to us. Thank you.
    [The prepared statement of Mr. Becker follows:]

 Statement of The Honorable Ralph Becker, Mayor, Salt Lake City, Utah, 
         on H.R. 3452, Wasatch Range Recreation Enhancement Act

    Chairman Bishop, Ranking Member Grijalva and Members of the 
Subcommittee:
    Thank you for the opportunity to testify regarding the Wasatch 
Range Recreation Access Enhancement Act. I provide this written 
testimony as Mayor of Salt Lake City, and as a previous member of an 
environmental planning firm that conducted NEPA and planning work in 
the Wasatch Mountains.
    I would like to recognize Congressman Rob Bishop for his dedication 
to our state and for his role as Chairman of this Subcommittee. In 
addition, I would like to recognize Congressman Raul Grijalva, Ranking 
Member of this Subcommittee. Finally, I would also like to express my 
appreciation to Congressman Jim Matheson for his work and leadership.
    The Wasatch Range Recreation Access Enhancement Act (H.R. 3452) 
seeks to convey federal land in Big Cottonwood Canyon, a critical Salt 
Lake City municipal watershed, to Talisker Corporation for the express 
purpose of ski resort-related development, known as SkiLink.
    Last year, I had an opportunity to testify before this Subcommittee 
on another important piece of legislation proposed for the Wasatch 
Canyons, Congressman Matheson's Wasatch Wilderness and Watershed 
Protection Act of 2010, H.R. 5009. In my testimony last year I 
described the characteristics of the Wasatch Canyons and the important 
history of planning, policy and development there. I noted: ``The Salt 
Lake Valley is unique in its natural setting and public lands. We have 
a population of 1,000,000 with a backyard, literally, of immediately 
accessible peaks that jut 7,000 feet above the Valley floor. We can 
walk out our doors and within 10 minutes be in downtown or be in 
spectacular mountain terrain. The landscape is unmatched; the pressures 
to develop are unmatched.''
    Unlike most rural areas where wilderness legislation is considered, 
the vast majority of Salt Lake Valley residents support strong 
protections in the Wasatch Canyons to preserve the land and protect our 
vital watershed. This is most recently reflected in a 2010 visioning 
document created with extensive public involvement, Wasatch Canyons 
Tomorrow. The Uinta-Wasatch-Cache National Forest is one of the most 
heavily visited National Forests in the nation.
    Our Wasatch Canyons history and the central place for water supply 
and watershed protection is instructive. Since the Salt Lake Valley was 
settled by Mormon Pioneers in the mid-1800's, surface water runoff from 
the Wasatch Mountains has been the primary source of water for the 
valley communities. These mountains rise to more than 11,000 feet above 
mean sea level (7,000 feet above the Valley floor), and act as a 
catcher's mitt for the storm systems that cross the dry desert to the 
west, blanketing them with hundreds of inches of snow each winter. This 
mountain snowpack is the primary storage for 60 percent of the drinking 
water supply to Salt Lake City and several other Salt Lake Valley 
communities.
    The importance of these watersheds to arid Salt Lake City and other 
Salt Lake Valley communities cannot be underestimated. The runoff is 
high quality and requires minimal treatment before it is distributed. 
The sustainment of high quality water minimizes public health risks of 
water contamination, making our communities more secure. In addition, 
high quality water keeps water affordable by minimizing treatment costs 
associated with chemical and energy use.
    Of particular significance to western water supplies, the water 
sources from the Wasatch Mountain watersheds are in close proximity to 
the communities that rely on the water. This benefits us by minimizing 
energy use in the transmission of water to the public, minimizing the 
embedded energy in our water supply. Sustainment of our local water 
sources improves our community's resiliency and security, especially as 
we consider the challenges associated with climate change impacts on 
western water supplies relied upon regionally, such as the Colorado 
River, and extended drought periods that have marked our history, and 
have a high likelihood of recurring.
    As our population continues to grow, our demand for water will 
continue to grow. The Utah Governor's Office of Planning and Budget 
projects that Salt Lake County's population of about 1 million people 
will increase by an additional 400,000 by 2030, and will almost double 
by 2060. The proximity of clean water from the Wasatch watersheds to 
the Salt Lake Valley facilitated the county's development and is 
critical in accomodating the significant projection of population 
growth.
    For decades, Salt Lake City Public Utilities has been a steward of 
about 200 square miles of watershed and has conducted studies and 
adopted protective policies and regulations in order to sustain high 
quality water to more than 500,000 people in Salt Lake City and several 
Salt Lake County communities that comprise its service area. In 
addition, the populations of other Salt Lake Valley communities outside 
Salt Lake City's water service area, such as Sandy City and areas 
served by the Jordan Valley Water Conservancy District, depend on the 
reliability and proximity of high quality water from the Wasatch 
Mountain watersheds.
    Salt Lake City's stewardship relies on a partnership with the U.S. 
Forest Service that has spanned more than a century. About 80 percent 
of the Salt Lake City watershed area is federal land managed by the 
Uinta-Wasatch-Cache National Forest. These lands were reserved into the 
National Forest System in 1904. In 1905, Chief Forester Gifford Pinchot 
met with Salt Lake City officials to stress the importance of the 
partnership between the U.S. Forest Service and Salt Lake City to 
protect the City's watershed areas. In addition, Mr. Pinchot also 
visited the Big Cottonwood Canyon watershed in 1905, promising federal 
aid and restoration for watershed protection. The most current Forest 
Plan (2003) for this area specifically prescribes protective watershed 
management. For more than 100 years, Salt Lake City and the Uinta-
Wasatch-Cache National Forest have collaborated on numerous programs 
and plans, including watershed stewardship and education programs, 
construction and maintenance of sanitary facilities, and trail planning 
and maintenance.
    I am supportive of our State's thriving ski industry. However, I 
have significant concerns with the substance and precedence of H.R. 
3452 as proposed. I am also concerned with the way in which this 
legislative process essentially removes our local citizens' valued and 
time-honored engagement in planning and decision-making for the present 
and future of the Wasatch Mountains.
    For decades, we who cherish the Wasatch Canyons have worked 
together through intensive public engagement with all jurisdictions, 
private interests (including the ski industry) and the public, to 
arrive at proposals that balance those interests and achieve some 
consensus. This proposal has failed to engage local interests; I, as 
mayor of Salt Lake City, with responsibility for protecting the 
watershed interests of our Valley, only learned of this legislative 
proposal through a news report. Unlike the Wilderness Bill that this 
Committee heard a year ago and was the subject of one year of intensive 
involvement and negotiation by all major parties, H.R. 3452 has 
circumvented our tradition of engaging our community. And, passage of 
this legislation as proposed would bypass the planning and NEPA 
processes that has enabled Salt Lake City and other jurisdictions to 
protect our watershed and other uses, and still provide for a wide 
range of uses.
    Because of this, I cannot support this legislation in its current 
form, but appreciate your willingness, Mr. Chairman, to listen to our 
concerns and work with us to address the desires, needs, and future of 
the Wasatch Canyons. I accept that invitation and look forward to that 
process.
    While H.R. 3452 appears to serve growth interests of two of Utah's 
respected ski resorts, Canyons and Solitude, I do not believe it 
addresses the interest of the general public. Studies have been 
produced on behalf of Talisker and Canyons Ski Resort to promote 
alleged benefits of SkiLink. Each of these studies claim public 
benefit, such as reduction in traffic and vehicle miles traveled, and 
economic benefits such as additional jobs. Close inspection of the 
assumptions and facts reported in these studies show the studies' 
conclusions are not well supported and the public's interest in 
protection of its municipal watersheds, habitat, and diverse recreation 
is not considered.
Public Representation Concerns and Conflict with Local Laws, Plans and 
        Policies
    The Wasatch Mountains surrounding the communities of the Salt Lake 
Valley sustain our quality of life and serve as a constant reminder of 
our stewardship over our remarkable natural resources in Utah. They 
provide clean drinking water, clean air, diverse recreational 
opportunities, and habitat protection. Salt Lake City's health, 
security, and economic prosperity are dependent upon this mountain 
range, and it is our obligation, as a community with extraordinary 
local interests, to protect these values for current and future 
generations.
    I am concerned that H.R. 3452 circumvents the expressed interests 
of the majority of our local citizens in favor of this development 
project. Salt Lake City and our neighboring communities collaborated in 
numerous local, State, and federal planning efforts over the last 
several decades regarding land use within the Wasatch Mountains. It is 
clear that the public land conveyance described in H.R. 3452 does not 
adequately recognize the local collaborative planning and decision-
making processes embraced by our community. For example, H.R. 3452 is 
in direct conflict with the 1989 Salt Lake County Canyons Master Plan, 
the 1999 Salt Lake City Watershed Management Plan, and the recent 2003 
Revised Wasatch-Cache National Forest Plan.
    The 1989 Salt Lake County Canyons Master Plan (County Master Plan), 
developed through an exhaustive public process, sets forth numerous 
policies with which H.R. 3452 conflicts, including watershed 
protection, ski area expansion, land acquisition and conservation, 
criteria for determining mountain transportation systems and 
aesthetics. Salt Lake City's 1999 Watershed Management Plan supports 
many of the policies of the County Master Plan. Its stated goal is to 
``emphasize water quality first and multiple use of the watershed 
second.''
    The 2003 Revised Wasatch-Cache National Forest Plan (Forest Plan) 
underlying management premise for the Central Wasatch Mountains is the 
need to provide long-term, high-quality culinary water to the large 
urban population of the Salt Lake Valley. The Forest Plan prohibits 
expansion of the existing four ski resorts outside of their permit 
boundaries. The Forest Plan also prescribes Standards and Guidelines 
for defined geographical regions. The area that is the subject of the 
Proposed Act maintains a prescription in which the emphasis is on 
maintaining or improving quality of watershed conditions. The Standard 
employed in this prescription does not allow ``timber harvest, road 
construction, and new recreation facility development.'' Both in 
regards to policy and standards, H.R. 3452 is directly in conflict with 
the Forest Plan.
    The 2010 Wasatch Canyons Tomorrow public engagement visioning 
process conducted by Envision Utah further validates the public's 
desire to ensure watershed and environmental protection by 
strengthening land use regulations, limiting development, and continued 
opportunities for a high level of public engagement.
    It is also important to note that in 1934 both Congress and Salt 
Lake City had a mutual understanding of the importance of protection of 
municipal watersheds from degradation. This resulted in the passage of 
Public Law No. 259, ``An Act for the Protection of the Public Water 
Supply of the City of Salt Lake City, State of Utah.'' This Act 
recognized the need to ensure sustainable water supplies emanating from 
National Forest lands, and directed control in Salt Lake City's 
watershed areas over activities like mining and timber harvesting. As 
such, H.R. 3452 likely conflicts with that intention and direction.
Inadequate Project Analyses
    The analyses conducted in support of SkiLink, and partially 
referenced in H.R. 3452's-Findings Section, are inadequate to support 
their conclusions, and do not present a balanced view of public 
benefits.
    The proposed development's traffic analysis fails to recognize 
possible negative impacts to Big Cottonwood Canyon traffic given 
projections of tens of thousands of additional skiers visiting Canyons 
and Solitude Ski Resorts due to the presence of the SkiLink 
interconnect chairlift. The traffic study also based its benefits from 
the limited perspective of skiers who travel between Canyons and 
Solitude Ski Resorts, a dataset that was derived, in part, by ``local 
knowledge'' and anecdotal evidence that would be difficult to replicate 
or reference.
    The Economic Impact Analysis for the project formed its basis on 
the direct and indirect economic impacts of additional skier visits, 
ranging from initial to maximum capacity projections of 75,000 to 
400,000 additional annual skier visits, and based solely on data 
provided by the resort. Even assuming that the Canyon's skier 
visitation projection data is correct and unbiased, the study did not 
consider whether public costs in additional future land management, 
infrastructure, watershed management, or additional water treatment due 
to overuse and watershed degradation would have a negative economic 
impact, particularly to Salt Lake Valley residents. The analysis is 
also unclear as to whether the overall net economic impact derived from 
additional skier visits is positive, as there is a good possibility 
that the increase in skier days projected by Canyons Ski Resort will 
come at the expense of the other ski resorts in the area. The analysis 
also does not take into account any negative impact to Utah's 
economically significant outdoor recreation industry.
    The project's Preliminary Environmental Analysis makes a broad 
assumption that because no significant water quality events have been 
identified in Salt Lake City watersheds where ski areas exist, the 
addition of the SkiLink project would not have water quality or 
watershed impacts. This main assumption in the environmental analysis 
is too narrow to support the studies' conclusions. It is also in 
conflict with development-related water quality events observed by Salt 
Lake City, specifically in the Big Cottonwood Canyon watershed, 
associated with both ski resort and private property development 
activity. The U.S. Forest Service recently conducted a systematic 
Watershed Condition Framework Classification effort to classify the 
level of watershed function and prioritize restoration activities. The 
Big Cottonwood Canyon watershed is classified as ``Functioning at 
Risk'' due to the presence of development and roads. The development 
facilitated by H.R. 3452 threatens to exacerbate the conditions that 
give the Big Cottonwood Canyon watershed an ``at risk'' rating; the 
implication of additional development on the Watershed Condition 
Classification was not assessed.
    The environmental analysis is also primarily focused on 
environmental regulatory hurdles affecting the development of SkiLink, 
and should not be confused with rigorous analysis under the National 
Environmental Policy Act. And finally, the environmental analysis 
failed to consider likely overuse impacts of the 75,000 to 400,000 
additional visitors, as estimated in the Economic Analysis, to the 
sensitive environment of the Big Cottonwood Canyon watershed.
Precedence Concerns
    H.R. 3452 sets precedence for legislatively bypassing collaborative 
and balanced local decision-making in Salt Lake City's critical 
municipal watersheds, and for eroding the publicly supported 
protections of our Wasatch Mountains. Presently the pressure for more 
development in our watersheds is significant and threatens their health 
and integrity. For example, SkiLink appears to be the first step in a 
broader ski resort expansion plan. Over the last year, Salt Lake City 
has become aware of plans by numerous ski resorts to build at least 
eight new chairlifts in the Big and Little Cottonwood Canyon 
watersheds. In addition to SkiLink, these proposed new chairlifts would 
expand commercial skiing to include additional, and presently intact, 
public lands outside of the existing U.S. Forest Service ski area 
permit boundaries, contrary to the Forest Plan and our local land use 
management plans. By our estimates and mapping, these new chairlifts 
could cumulatively result in ski area expansions that double the 
combined 6,294 acres of commercial ski area in two of our most critical 
watersheds.
    These new resort expansions would present negative cumulative 
impacts to our watersheds, significantly increasing our vulnerability 
to serious water supply degradation. Cumulative watershed impacts of 
the new ski area developments will result in significant water quality 
and water supply degradation, as well as affect surface water runoff 
and timing patterns. These new land developments would impact our 
watersheds by (1) contributing to more use of the canyons, (2) 
pressuring existing infrastructure such as roads, sewer, water, and 
parking, and (3) leading to cumulative and incremental increases of the 
development footprint in the watersheds, including the increase of 
hard, impermeable surfaces.
    The precedence set by H.R. 3452 of selling public lands for 
commercial development in our community's watersheds is not a good one 
given that, from our perspective, others will follow suit with this 
strategy rather than engage the local community. In addition, while I 
have presented concerns of precedence impacting the Wasatch Mountains, 
I am also well aware that other communities across the nation, 
especially those who rely on water and other ecosystem services 
emanating from public lands, would be affected by the precedence of the 
Proposed Act.
A Commitment to Collaboration
    I am committed to collaborative processes that engage the public 
and stakeholders in transparent management and decision making. With 
respect to the Wasatch Mountains, I am eager to take a holistic 
approach to plan for the future of these treasured places. The 
pressures for more use, recreation, and development of these critical 
watersheds seem to be colliding with environmental stressors, our 
increased population projections and a resulting increased demand of 
clean, reliable and affordable water. All of these pressures are 
creating unprecedented conflict. The desire for the land conveyance in 
the Wasatch Range Recreation Enhancement Act is both a sympton of the 
conflict and a departure for public engagement and careful 
consideration of our resources and many users of the Wasatch Canyons.
    As we move in a direction to resolve this conflict, I hope we can 
engage our citizens, governments, businesses, non-governmental 
organizations and leaders, including our Congressional delegation, in 
an inclusive and collaborative process to give us better tools to adapt 
to this increasingly complex mix of pressures and stressors in the 
Wasatch Canyons.
    Again, thank you for the opportunity to provide this testimony 
regarding the Wasatch Range Recreation Enhancement Act.
                                 ______
                                 
    Dr. Gosar. Thank you, Mr. Mayor.
    Now it is my pleasure to introduce one of my colleagues and 
friends from Coconino County, Supervisor Matt Ryan.

                    STATEMENT OF MATT RYAN, 
              SUPERVISOR, COCONINO COUNTY, ARIZONA

    Mr. Ryan. Thank you, Acting Chair Gosar, Chairman Bishop 
and Ranking Member, and a special hello to Ranking Member 
Grijalva. It is nice to see you, sir.
    Members of the Committee, the Subcommittee on National 
Parks, Forests and Public Lands, I appreciate the opportunity 
to provide testimony on H.R. 1038, legislation to address a 
boundary correction in the Mountainaire Subdivision in Coconino 
National Forest, Arizona. My name is Matt Ryan, and I serve on 
the Coconino County Board of Supervisors representing District 
3. I am here today representing my district and the Coconino 
County Board of Supervisors.
    Coconino County would like to thank the Subcommittee for 
the consideration of H.R. 1038. On behalf of Coconino County 
and the residents of District 3, we would also like to thank 
Congressman Paul Gosar for introducing the legislation to 
address this important issue. H.R. 1038 will provide a much 
needed relief to homeowners of Mountainaire Subdivision.
    As background, in November 2007, the United States Bureau 
of Land Management completed a land survey in the Mountainaire 
Subdivision in Coconino National Forest. During the 2007 
survey, the BLM determined that an erroneous privately 
contracted survey of Mountainaire Unit 1, which was completed 
in 1960 and 1961, misidentified several acres of the United 
States Forest Service land as private property.
    Since this time the surveyors have passed away, and the 
homeowners are faced with a situation of living on land owned 
by the Forest Service. On some of the developed parcels, the 
revised boundary goes through portions of the landowners' 
residences. Furthermore, several of these residents have 
maintained these parcels and developed them as their own for 
years and in some cases for decades.
    It is important to point out that these homeowners 
purchased their property legally based on the results of the 
original survey. These homeowners acted within the law and 
acquired this property through proper channels. The boundary 
discrepancy impacts 26 lots and 27 property owners in the 
Mountainaire Subdivision. The entire encroachment for all lots 
involved is a total area of two and a half to three acres.
    Since 2007, a number of property owners in this area have 
attempted to sell their property and have difficulty in doing 
so due to questions associated with land ownership. As you are 
well aware, the Forest Service has limited ability to convey 
land to private property owners. Under the Small Tracts Act, 
Public Law 97-465, the Forest Service is authorized to sell or 
exchange small parcels of Federal land that meet certain 
criteria. The Small Tracts Act requires the Forest Service to 
work with individual landowners to convey the property at fair 
market value. This option, however, would prove costly to the 
landowners and the Federal Government and could potentially 
take several years to complete.
    Following discussions with the Forest Service, Coconino 
County and the impacted homeowners, it was determined that 
pursuing legislation to correct the boundary discrepancy would 
be the most viable option. A legislative option was raised to 
provide the Forest Service the authority needed to convey the 
property to the landowners without any consideration from the 
landowners. Under this option, the cost to the Forest Service 
and landowners would be minimal and the amount of time to 
correct the discrepancy significantly reduced. Representative 
Paul Gosar introduced H.R. 1038 as a result of these 
discussions.
    It is important to point out that this conveyance will have 
a cost to the county and the homeowners. Both groups will pay 
an additional survey of each individual parcel, the cost to 
create a legal entity to receive the property, as well as the 
$20,000 included in the consideration of the legislation. We 
believe this is a small price to grant these homeowners the 
peace of mind knowing the property they live on is their own.
    Thank you for the opportunity to address your Committee. 
The County Board of Supervisors would extend our gratitude to 
Chairman Bishop, to Congressman Gosar and the Committee for the 
continued efforts to address the Mountainaire boundary 
discrepancy.
    [The prepared statement of Mr. Ryan follows:]

                  Statement of Supervisor Matt Ryan, 
           Coconino County Board of Supervisors, on H.R. 1038

    Chairman Bishop and members of the Subcommittee on National Parks, 
Forests and Public Lands, I appreciate the opportunity to provide 
testimony on H.R. 1038, legislation to address a boundary correction in 
the Mountainaire Subdivision in the Coconino National Forest in 
Coconino County, Arizona. My name is Matt Ryan and I serve on the 
Coconino County Board of Supervisors representing District Three. I am 
here today representing my district and the Coconino County Board of 
Supervisors.
    Coconino County would like to thank the Subcommittee for 
considering H.R. 1038. On behalf of Coconino County and the residents 
of District Three, we would also like to thank Congressman Paul Gosar 
for introducing legislation to address this important issue. H.R. 1038 
will provide much-needed relief to homeowners of the Mountainaire 
Subdivision.
    As background, in November 2007, the United States Bureau of Land 
Management (BLM) completed a land survey in the Mountainaire 
Subdivision in the Coconino National Forest. During the 2007 survey, 
the BLM determined that an erroneous privately contracted survey of 
Mountainaire Unit I, which was completed between 1960 and 1961, 
misidentified several acres of United States Forest Service (USFS) land 
as private property. Since this time, the surveyors have passed away 
and the homeowners are faced with a situation of living on land owned 
by the USFS.
    On some of the developed parcels, the revised boundary goes through 
portions of the landowner's residence. Furthermore, several of these 
residents have maintained these parcels and developed them as their own 
for years, and in some cases decades.
    The boundary discrepancy impacts 26 lots and 27 property owners in 
the Mountainaire Subdivision. The entire encroachment for all lots 
involves a total land area of 2.5 to 3 acres. Since 2007, a number of 
the property owners in this area have attempted to sell their 
properties and are having a difficult time doing so, due to questions 
associated with the land ownership.
    As you are well aware, the USFS has limited ability to convey land 
to private landowners. Under the Small Tracts Act, Public Law 97-465, 
the USFS is authorized to sell or exchange small parcels of federal 
land that meet certain criteria. The Small Tracts Act requires the USFS 
to work with the individual landowners to convey the property at fair 
market value. This option, however, would prove costly to the 
landowners and federal government, and could potentially take several 
years to complete.
    Following discussions with the USFS, Coconino County and the 
impacted homeowners, it was determined that pursuing legislation to 
correct the boundary discrepancy would be the most viable option. A 
legislative option was raised to provide the USFS the authority needed 
to convey the property to the landowners without any consideration from 
the landowners. Under this option, the cost to the USFS and landowners 
would be minimal and the amount of time to correct the discrepancy 
significantly reduced. Representative Paul Gosar introduced H.R. 1038 
as a result of these discussions.
    It's important to point out that this conveyance will have a cost 
to the county and homeowners. Both groups will pay for an additional 
survey of each individual parcel, the cost to create a legal entity to 
receive the property, as well as the $20,000 included as consideration 
in the legislation. We believe this is a small price to pay to grant 
these homeowners the peace of mind of knowing the property they live on 
is their own.
    Thank you for the opportunity to address the House Natural 
Resources Subcommittee on National Parks, Forests and Public Land. The 
Coconino County Board of Supervisors would like to extend our gratitude 
to Chairman Bishop, Congressman Gosar and the Committee for their 
continued efforts to address the Mountainaire boundary discrepancy.
                                 ______
                                 
    Dr. Gosar. Thank you, Supervisor Ryan.
    And our next guest is Mr. Rusty Gregory, the Chairman and 
CEO of Mammoth Mountain. You may proceed.

 STATEMENT OF RUSTY GREGORY, CHAIRMAN AND CEO, MAMMOTH MOUNTAIN

    Mr. Gregory. Mr. Chairman, Acting Chair, Ranking Member 
Grijalva, thank you for the opportunity to speak to the 
Subcommittee Members today on H.R. 2157.
    My company, Mammoth Mountain Ski Area, has been working on 
a trade since 1998, and recently signed an agreement to 
initiate this land trade with the Forest Service for 21 acres 
at the base of Mammoth Mountain. Mammoth Mountain is one of the 
three most frequented ski resorts in the nation, along with 
Vail and Breckenridge, and we have been a permit holder for 
approximately 60 years with the United States Forest Service.
    We are located in a very small town of four-and-a-half 
square miles, 7,000 people. We employ 3,000 of those local 
citizens, which represent 30 percent of the total employment of 
Mono County. The 21-acre land trade in question is directly 
across the street from our main ski lodge. It is the gateway to 
skiing but also to the national monument, Red's Meadows and 
Devils Postpile National Monument, and it is the site of a 50-
year-old hotel.
    We inherited this hotel from the original developer that 
built the hotel in the 1950s, and we took ownership over in the 
1980s because they were totally unprepared to deal with the 50 
to 60 feet of snow that occurs on that site typically on its 
9,000-foot elevation. The hotel, the Mammoth Mountain Inn, was 
incredibly poorly constructed by a developer from the beach 
area in southern California, and we have been struggling with 
the infrastructure ever since the 1980s when we took over. Most 
notably, it has an open air sewer pond out in the pristine 
forest out behind the hotel. It is quite a mess.
    The hotel is a nonpermitted but grandfathered use under our 
ski area special use permit. As old as it is, the Mammoth 
Mountain Inn is very important to our small, local community. 
It has 400 employees, provides $1 million of transient 
occupancy tax, which represents about 60 percent of the local 
municipal budget, which is a total of $12 million, so a big 
portion of our local tax base.
    So the trade, this 21-acre trade makes the replacement of 
the Mammoth Mountain Inn possible by virtue of the ownership of 
the underlying land which is necessary to finance what will be 
a phased $500 million replacement project of this facility. The 
trade parcel for the 21 acres includes 10 parcels of land, 
1,700 acres of very high resource value land around Mammoth 
Mountain and the Owens Valley in California that includes, for 
instance, a 100-acre Mono Lake scenic area, land that we 
purchased four years ago in anticipation of this trade to avoid 
development above the environmentally sensitive Mono Lake area 
at the bottom of Tioga Pass, which is the entrance into 
Yosemite National Park.
    H.R. 2157, however, is not a legislative land trade. It 
doesn't alter what is and should be the rigorous approval 
process for this ongoing land trade. We are in the process of a 
NEPA environmental assessment and a number of other factors 
that we need to achieve to culminate the trade.
    We do agree with our partners, the Forest Service, that 
insufficient high resource land beyond the land that we have 
already secured for the trade isn't available today to complete 
this trade within the FLPMA cash equalization limits of 25 
percent. H.R. 2157 will allow the Forest Service to accept cash 
in addition to the funds that come from the trade land to 
provide value equal to the 21 acres, the Mammoth Mountain Inn 
site that I spoke about before.
    So I request that you support H.R. 2157 so we can move 
forward with the trade and this significant investment of 
approximately half a billion dollars in our very small, local 
community. This will add 400 additional jobs to the community 
on top of the 400 that come from the Mammoth Mountain Inn 
today, and an additional $1 million of transient occupancy tax 
will be provided as well.
    Thank you for the opportunity to speak with you.
    [The prepared statement of Mr. Gregory follows:]

    Statement of Rusty Gregory, Chairman & Chief Executive Officer, 
                Mammoth Mountain Ski Area, on H.R. 2157

    Mammoth Main Lodge Redevelopment LLC, a related company to Mammoth 
Mountain Ski Area, LLC, (``MMSA''), and the United States, by and 
through the United States Forest Service, U.S. Department of 
Agriculture, (``USFS'') have signed an Agreement to Initiate for a 
land-for-land exchange (``Land Exchange'') for approximately 21-acres 
at the base of Mammoth Mountain Ski Area, Mammoth Lakes, Mono, 
California.
    MMSA owns and operates Mammoth Mountain Ski Area, which operates 
under a Ski Area Term Special Use Permit (``SUP'') issued by the USFS. 
Mammoth Mountain is located in the spectacular Eastern Sierra Nevada 
region of California, and consists of approximately 3200 ski-able 
acres. Mammoth Mountain Ski Area began operations in 1953, and has 
grown to be one of the most visited ski areas in the United States. 
Mammoth Mountain has been the site of many important developments in 
ski area operations, and has been a faithful partner of the USFS for 
nearly sixty years. This year, Mammoth Mountain provided winter outdoor 
recreation opportunity to 1.3 million public land visitors. Depending 
on seasonal variability, MMSA generates between ten and thirty percent 
of total employment in Mono County, and MMSA's services bring the 
recreation visitors who fill the hotels and restaurants and buy the 
goods and services of businesses located up and down the Owens Valley. 
MMSA takes seriously its role as the economic engine of the region.
    The Land Exchange was first initiated in 1998, and has recently 
gained significant momentum. The primary reason for pursuing the Land 
Exchange is to provide a better experience to the public at this very 
highly used portal to public lands. This will primarily be accomplished 
by replacing the aging and rapidly dilapidating Mammoth Mountain Inn, 
providing higher levels of guest service and better amenities, all 
enhancing visitor experience and creating increased capacity for skier 
visits at the main base area of Mammoth Mountain. The Inn, constructed 
in the late 1950s, is a ``grandfathered'' non-compliant use under the 
Ski Area Term Permit Act. Since purchasing the Inn, MMSA has made 
extensive efforts to arrest the Inn's decay, and has sought to mitigate 
the growing health and safety hazards presented by using a rapidly 
decaying, inefficient building. MMSA strongly desires to demolish the 
Inn complex, and replace it with modern, efficient development. 
However, obtaining the financing required to redevelop the Inn cannot 
be readily achieved while the Inn sits on public land.
    Carrying out the Land Exchange will make it possible to address the 
following inadequacies:
        <bullet>  The Mammoth Mountain Inn, a 217-unit/475-bed hotel, 
        is over 50 years old and requires significant upgrades due to 
        construction quality, deterioration, and deferred maintenance 
        (In fact, due to the outdated construction, the most efficient 
        and cost effective redevelopment of the current buildings is 
        demolition and building new facilities);
        <bullet>  Antiquated design, layout, and circulation of Main 
        Lodge building; pedestrian circulation through Main Lodge Area 
        is random and not intuitive;
        <bullet>  The Main Lodge building is also nearly 50 years old 
        and requires significant upgrades due to construction quality, 
        deterioration, and deferred maintenance;
        <bullet>  Inefficient lift line queuing, restricted skier 
        staging areas, and skier traffic conflicts between lifts;
        <bullet>  Inefficient and conflicting traffic and pedestrian 
        circulation and parking;
        <bullet>  Limited beginner, teaching terrain;
        <bullet>  Unsightly back-of-house operations which are guest-
        facing and create less than optimal first impressions (e.g., 
        loading dock and trash removal);
        <bullet>  Lack of quality hotel rooms, suites, and transient 
        rentals;
        <bullet>  Underprovided amenities and non-ski activities; and
        <bullet>  Lack of employee housing on-site.
    Many of these inadequacies could possibly be corrected under the 
existing SUP. However, there are a number of disadvantages that make 
this option risky and potentially infeasible:
        <bullet>  Rehabilitation and redevelopment of existing ski and 
        recreation base facilities is permitted under the SUP, but the 
        development of new lodging facilities at MMSA may be prohibited 
        by the terms of the Ski Area Permit Act of 1986;
        <bullet>  No vesting rights and no long-term assurance of 
        entitlement;
        <bullet>  Limitations on construction and permanent financing 
        due to the lease nature of the SUP and its short term--only 40 
        years; and
        <bullet>  Limitations on for-sale product and owner financing.
    Therefore, to facilitate and implement the redevelopment of the 
Mammoth Mountain Inn and Main Lodge Area in an economically feasible, 
modern, efficient, and environmentally responsible manner, MMSA 
believes the best results would be achieved by completing the Land 
Exchange with the Forest Service. By obtaining fee title to the land at 
the Mammoth Mountain Inn and Main Lodge Area, MMSA will be able to:
        <bullet>  Utilize traditional infrastructure financing sources 
        to redevelop the Mammoth Mountain Inn and Main Lodge Area;
        <bullet>  Utilize state of the art technologies to maximize 
        guest services while minimizing environmental footprint;
        <bullet>  Provide the public a better on-hill experience 
        through more efficient queuing and staging areas, more 
        efficient skier flow between lifts, and increased teaching 
        terrain;
        <bullet>  Provide the public with a better arrival experience 
        through a new base lodge that has intuitive circulation and 
        pedestrian flow from skiers services to the lifts, more 
        efficient parking and transportation circulation and layout, 
        and reduced traffic;
        <bullet>  Support an increase in the number of skiers;
        <bullet>  Vest its rights in fee ownership and increase its 
        asset base;
        <bullet>  Increase transient bed base, which will in turn 
        increase transient occupancy tax revenues for the Town of 
        Mammoth Lakes;
        <bullet>  Allow for the potential of for-sale products to help 
        minimize cash flow contributions for non-income producing 
        amenities and facilities, and provide a higher level of demand 
        for on-site amenities;
        <bullet>  Provide a variety of public amenities such as 
        restaurants, shops, spa, entertainment, activities, conference 
        facilities, and gathering areas;
        <bullet>  Provide employee housing;
        <bullet>  Take advantage of the recently enacted Ski Area 
        Recreational Opportunity Enhancement Act by expanding summer 
        recreation facilities; and
        <bullet>  Increase the year round utilization of facilities and 
        services.
    In exchange for the approximately 21 acres of National Forest land 
under permit to MMSA (the ``Federal land''), we have worked closely 
with the Forest Service to identify, acquire or option over 1,729 acres 
of high resource value lands for the public within the Inyo, Plumas, 
Stanislaus, and Eldorado National Forests in California (the ``non-
Federal lands''). Included within these non-Federal lands are the 
historic Mono Lake-Cunningham parcel, which MMSA purchased at the 
request of the Inyo National Forest and the late Olympic great and 
noted environmentalist Andrea Lawrence. MMSA's purchase staved off the 
threat of pending development in the heart of the Mono Basin National 
Forest Scenic Area.
    The package of offered non-Federal lands also includes two parcels 
owned by the Los Angeles Department of Water and Power, located just 
outside the proclaimed boundaries of the Inyo National Forest. These 
parcels represent less than one percent (1%) of the land to be traded 
to the United States, but serve important public functions, including 
housing the Interagency Visitors Center in Lone Pine, a facility 
annually used by tens of thousands of people as an interpretive gateway 
to the public lands in the Eastern Sierra region. Provided the Land 
Exchange is ultimately approved by the Forest Service, H.R. 2157 is 
needed to allow the Forest Service to acquire these two parcels because 
they are located outside the Forest boundary.
    H.R. 2157 also authorizes the Forest Service to accept, into what 
is known as a Sisk Act account, the funds necessary to complete an 
equal value exchange. The deposited funds will be used by the Forest 
Service to acquire additional high resource value lands in the future. 
We believe this approach strikes just the right balance, because 
despite all of the high resource value land (and the addition of the 
small administrative parcels) being traded to the United States, the 
Forest Service has concluded there is nevertheless insufficient high 
resource value land currently available in California to create an 
equal value land exchange. The approach therefore avoids the unintended 
and potentially problematic consequences which might result from 
removing currently available low resource value lands from private 
ownership and placing them into public ownership just to serve the 
purpose of balancing the Land Exchange.
    Moreover, we believe this provision is appropriate due to the 
complexity and size of the Land Exchange. The amount of funds necessary 
to complete the equal value exchange will be determined by appraisals 
of the Federal and non-Federal exchange parcels. The appraisals will be 
prepared in accordance with appropriate Federal appraisal regulations 
and processes. While appraisals have not been completed, it is 
anticipated that the necessary equalization funds could exceed 25% of 
the value of the Federal land to be exchanged. H.R. 2157 will authorize 
the Forest Service to accept whatever amount of funds are necessary to 
ensure the public receives equal value for the 21 acres at the base of 
Mammoth Mountain. Such provisions have been included in numerous other 
Congressional actions authorizing previous land exchanges.
    What H.R. 2157 does not do is direct the Forest Service to complete 
the Land Exchange, nor does it relieve the Forest Service or MMSA from 
completing the Land Exchange in full compliance with all other laws and 
regulations, including the National Environmental Policy Act (NEPA). At 
present, the Forest Service is in the process of working on the 
environmental review of the Land Exchange, as required under NEPA. The 
process includes early and continuous public involvement. We expect the 
NEPA process to conclude that there are no detrimental environmental or 
socioeconomic impacts, and indeed we believe the NEPA process will 
reveal that the Land Exchange provides significant environmental and 
socioeconomic benefits. For these reasons, the Land Exchange, including 
the elements which require the passage of H.R. 2157, have received 
support from the premier environmental groups in the region, including 
the Mono Lake Committee, the Friends of the Inyo, and the Eastern 
Sierra Land Trust, who have each provided letters of support.
    We are hopeful that this legislation will be enacted, and that the 
Forest Service will proceed, after completion of the NEPA process, to 
execute an Exchange Agreement with MMSA, thereby enabling the 
completion of the Land Exchange. Upon completion of the Land Exchange, 
MMSA will begin the next step, which is to seek approval of development 
plans from the local jurisdiction. Such approval will require 
significant additional review, including compliance with local 
ordinances, and thorough review under the California Environmental 
Quality Act.
    We thank you for your time and consideration, and urge you to 
recommend the passage of H.R. 2157.
                                 ______
                                 
    Dr. Gosar. Thank you, Mr. Gregory.
    Our next guest is Mr. Pedro Segarra, the Mayor of Hartford, 
Connecticut.

                  STATEMENT OF PEDRO SEGARRA, 
                  MAYOR, HARTFORD, CONNECTICUT

    Mr. Segarra. Thank you. Good afternoon, Mr. Acting Chair, 
Chairman Bishop, Ranking Minority Member Grijalva and 
distinguished Members of the Subcommittee on National Parks, 
Forests and Public Lands.
    On behalf of the City of Hartford, which recently 
celebrated its 375th anniversary, I appear before you today in 
support of H.R. 2504, the designation of Coltsville Historic 
District as a national park. I want to thank Congressman John 
Larson and Senators Lieberman and Blumenthal for their tireless 
support of this critical and important initiative.
    This effort, which also has broad support of the city's 
business community, institutions and organizations, is critical 
to the revitalization of Connecticut's capital city and will 
become a centerpiece in the city's effort to increase its focus 
on heritage tourism. It would also stand as a model to the 
future of innovation.
    The Colt Manufacturing facility and surrounding structures 
played a critical, if not essential, role in the national 
defense, defining the direction of the United States during a 
time of great exploration and innovation. It not only changed 
the face of national and international business and commerce 
but also enhanced and further promoted the spirit of American 
business ingenuity and its role in the local community.
    It is symbolic that we are now again presented with a 
monumental decision that, if approved, will help shape and 
encourage an ongoing renaissance of the City of Hartford and 
further promote the historic art and the necessary investment, 
which our Governor, Governor Dannel Malloy, has made to restore 
funding designated to promote Connecticut's cultural and 
tourism destinations.
    The City of Hartford, the State of Connecticut and the 
collaborative of associated public and private entities is 
deeply invested in the Coltsville neighborhood. The city has 
already rebuilt two schools and improved housing stock in the 
immediate area and has committed almost $3 million in matching 
funds to improve surrounding streets in ways that will redefine 
space, improve visuals, increase safety and enhance the overall 
vibrancy of the area. We are also standing ready to assist the 
other elements, such as a greater scope and definition, which 
are added to the revitalizations of America's first and 
arguably most prominent industrial zones.
    A commitment has also been made by local businesses, 
property owners and management such as the Colt Gateway 
Riverfront Recapture and the Capital Region Education Council 
to preserve, maintain and manage their properties in accordance 
with the National Park Service and historic preservation guide. 
A national park at Coltsville will only require the Park 
Service to manage the 10,000 square feet designated in the East 
Armory. All other areas will be interpreted externally on an 
agreement with the National Park Service and will be 
established during the evaluation period outlined in the 
legislation.
    It is important to briefly recognize the number of jobs 
this effort will create and the overall impact to the economy. 
Not only will the trades benefit through an intense 
construction effort, but long-term growth for the region across 
this entire job spectrum, not only the direct benefits to the 
leisure and hospitality sector but also those critical indirect 
and secondary job markets that will be added and supported as 
well.
    With an intense focus on commitment in these areas, the 
region has already seen over 1,000 new jobs created and the 
infusion of $175 million into the regional economy. This 
designation, critical to the further restoration of the Colt 
Manufacturing plant, has been independently estimated to 
generate an additional $150 million to the regional economy and 
create 1,000 additional jobs over the next five years. If no 
further development occurs, it would only yield $30 million and 
229 jobs.
    I thank you for your time and consideration and do hope 
that you will move this resolution forward not only because 
this recognition is long past due but, because many positive 
outcomes will no doubt result from Coltsville being designated 
a national park. I ask that this testimony be made part of the 
record, and I will answer any questions that you might have.
    [The prepared statement of Mr. Segarra follows:]

          Statement of The Honorable Pedro E. Segarra, Mayor, 
         City of Hartford, Connecticut, in Support of H.R. 2504

    Chairman Bishop, Ranking Minority Member Grijalva, and 
Distinguished Members of the Subcommittee on National Parks, Forests 
and Public Lands:
    On behalf of the City of Hartford, which recently celebrated its 
375th Anniversary, I appear before you today in support of H.R. 2504, 
the designation of the Coltsville Historic District as a National Park. 
I want to thank Congressman John Larson and Senators Lieberman and 
Blumenthal for their tireless support of this critical and important 
initiative. This effort, which also has the broad support of the City's 
business community, institutions, and organizations, is critical to the 
revitalization of Connecticut's Capital City, and will become a 
centerpiece of the City's effort to increase its focus on heritage 
tourism. It will also stand as model for future innovation.
    The Colt Manufacturing facility, and surrounding structures, played 
a critical--if not essential--role in our national defense, defining 
the direction of the United States during a time of great exploration 
and innovation. It not only changed the face of national and 
international business and commerce, but also enhanced and further 
promoted the spirit of American business ingenuity, and its role in 
local community. It is symbolic that we are now again presented with a 
monumental decision that, if approved, will help to shape and encourage 
an ongoing renaissance in the City of Hartford and further promote the 
historic and necessary investment that Governor Dannel Malloy has made 
to restore funding designed to promote Connecticut's culture and 
tourism destinations.
    The City of Hartford, State of Connecticut, and the collaborative 
of associated public and private entities, is deeply invested in the 
Coltsville neighborhood. The City has already rebuilt two schools and 
improved housing stock in the immediate area, and has committed almost 
$3 million dollars in matching funds to improve surrounding streets in 
ways that will redefine space, improve visuals, increase safety and 
enhance the overall vibrancy of the area. We also stand ready to assist 
with other elements as greater scope and definition are added to the 
revitalization of one of America's first, and arguably most preeminent, 
industrial zones. A commitment has also been made by local businesses, 
property owners, and managers, such as the Colt Gateway, Riverfront 
Recapture and the Capitol Region Education Council, to preserve, 
maintain and manage their properties in accordance with the National 
Park Service and Historic Preservation Guide. A National Park at 
Coltsville will only require the Park Service to manage the 10,000 
square feet designated in the East Armory. All other areas will be 
interpreted externally or an agreement with the National Parks Service 
will be established during the evaluation period outlined in the 
legislation.
    It is important to briefly recognize the number of jobs this effort 
will create and the overall impact to the economy. Not only will the 
trades benefit through an intense construction effort, but long term 
job growth for the region across the entire job spectrum; not only in 
direct benefits to the leisure and hospitality sector, but also those 
critical indirect and secondary job markets that will be added and 
supported as well. With an intense focus and commitment in these areas, 
the region has already seen over 1,000 new jobs created and the 
infusion of $175M into the regional economy. This designation, critical 
to the further restoration of Colt Manufacturing, has been 
independently estimated to generate an additional $150M for the 
regional economy and create 1,000 additional jobs over the next five 
years. If no further development occurs, it will only yield $30M and 
229 jobs.
    I thank you for your time and consideration and do hope that you 
will move this resolution forward, not only because this recognition is 
long past due, but because of the many positive outcomes that will no 
doubt result from Coltsville being designated as a National Park.
                                 ______
                                 
    Dr. Gosar. So asked. Will be done. Thank you, Mayor.
    As is the protocol with the Chair, I will wait until the 
very end and abdicate to Mr. Bishop first. Mr. Herger?
    Mr. Herger. Thank you. Thank you, Mr. Chairman.
    Mr. Smith, with respect to H.R. 1237, you stated in your 
written testimony that you do not support this legislation 
because the land to be acquired by the agency does not possess 
any ``recreational or natural resources values that would 
contribute to the management of the National Forest System''. 
Could you define recreation or natural resource values?
    Mr. Smith. Basically, when we acquire a piece of land or 
exchange it or something like that, there is a set of criteria 
that we use to see whether it is in the public benefit. And 
based on the analysis that they have done, the analysis came 
back that there wasn't really much of a public benefit to make 
that exchange there. Usually you are looking at high-quality 
recreation activities, something that you are going to do in a 
recreation area. Sometimes you are looking at a resource area 
that will improve or protect. And based on the analysis from 
the research, nothing came back that was significant.
    Mr. Herger. You also say that the consolidation resulting 
from this bill will not produce ``measurable forest management 
benefits''. Isn't it within the agency's best interest to 
consolidate land within forest boundaries when it can?
    Mr. Smith. I think that is what they are saying here. Here, 
in this case, we would end up with an inholding, and we don't 
think this consolidation will create an inholding. That 
wouldn't serve the benefit of the Forest Service and it 
wouldn't be a public benefit. That is why we are interested in 
looking at other parcels that we can still do what needs to be 
done in this area, but the consolidation would just create an 
inholding.
    Mr. Herger. And while I appreciate the Forest Service 
suggestion regarding this acquisition of more desirable 
parcels, this legislation was introduced to allow the TPUD to 
convey these parcels and consolidate Federal holdings in 
exchange for one five-thousandths of a percent of the Shasta-
Trinity National Forest to benefit the local community and to 
avoid a convoluted and bureaucratic purchase and exchange 
process that local managers have been reluctant to work on.
    My question, Mr. Smith, is based on those simple terms. Why 
can't the agency support this legislation on this principle, 
and why does it feel that it should be entitled to get 
something out of it beyond an equal value exchange for the 
Federal Government?
    Mr. Smith. I don't think that is what that is saying. I 
think what it is saying is that we looked at all the resource 
values, and going back to the consolidation point that you 
made, if we could find parcels that we did not create an 
inholding, that we could do the consolidation and then serve 
those purposes, we would be interested. But we think that 
creating this big inholding would not serve those purposes, and 
I think that is the point where we come down on.
    Mr. Herger. Well, Mr. Smith, I have to tell you that we are 
very concerned in the community. As you know, the unemployment 
is over 20 percent. The tax base is very limited. The Federal 
Government owns approximately 75 percent of this county. It is 
a very poor county.
    There is a great concern in the community certainly among 
the elected officials that the Federal Government has not been 
working with them, and I would certainly hope that somehow we 
could turn that impression around and that you could work with 
us more to help us solve the problems we have there.
    Mr. Smith. I think that is certainly my intention. As I 
stated in my testimony, we are willing to work with the 
Committee, the congressmen and yourself, and I think we will be 
able to find some solutions, but we want to take a look at some 
other parcels and look at some other options.
    Mr. Herger. Thank you. Thank you, Mr. Chairman.
    Dr. Gosar. Thank you. At this time, I would like to 
introduce the Ranking Member, Congressman Grijalva.
    Mr. Grijalva. Thank you very much. Let me begin, Mayor 
Segarra. This piece of legislation is something that I have 
supported in the past and continue to do so. It is a good 
piece, and I hope that the Committee sees fit to move it on and 
so I appreciate your being here.
    Supervisor Ryan, it is good to see you. I will be 
discussing with Congressman Gosar the only issue that I have 
that probably needs clarification and more explanation is the 
fixed amount of $20,000 versus some other mechanism to arrive 
at that amount, but we will pursue that. It is a good fix, but 
that remains a question for me that I will be glad to work with 
my colleague on.
    Other than that, Supervisor, this is a piece of legislation 
that I really can't argue with Mr. Gosar about, and since we 
enjoy arguing so much with each other you have robbed us of an 
opportunity to do that today and for that I am not terribly 
pleased, but that is OK.
    [Laughter.]
    Mr. Grijalva. Deputy Smith, H.R. 3452. Enactment of this 
legislation would create a private inholding, as you mentioned 
in your testimony, within the forest. Is this checkerboard 
pattern of land ownership the kind of resource management or 
management idea that is a good one?
    Mr. Smith. No. As you know, in terms of consolidation, what 
we like to do is try to get rid of the checkerboard pattern.
    Mr. Grijalva. And roadless areas? Elaborate a little bit. 
Roadless areas in forests in general protect water quality. 
What impact might a major construction project within this area 
that we are talking about under H.R. 3452 have on water quality 
for Salt Lake City and the surrounding area?
    Mr. Smith. That is correct. That is one of the things we 
are concerned about is the watershed protection and also just 
building the corridor in that there are other resources there, 
and there is also private land going across there.
    So we think that we would like to look at other options and 
work with the Committee, as well as with the county, to see if 
we can do something a little different there.
    Mr. Grijalva. In legislation like H.R. 3452, does the 
Forest Service solicit and respond to public input in making 
this resource management decision regarding the construction of 
a major project like this one, and does this legislation, as 
far as you can tell, afford you that similar public involvement 
opportunity?
    Mr. Smith. We always will go through the public process and 
an environmental analysis in particular in something like this. 
We think this legislation would limit us in that opportunity to 
do that.
    Mr. Grijalva. Mayor Becker, thank you and welcome. Your 
testimony indicated that the construction of this project is 
not supported by the local community. Could you elaborate? What 
is the opposition based on? How serious is that opposition and 
just on the issue of how people are reacting to the proposal.
    Mr. Becker. This proposal has created an uproar as great 
against a proposal as I have seen for a number of years in the 
Wasatch Mountains. Part of it is the proposal itself, and part 
of it is what it represents, the precedent that it sets. I can 
certainly speak on behalf of Salt Lake County, and you received 
a statement as well from the Mayor of Salt Lake, of Salt Lake 
City. You received a statement as well from the Mayor of Salt 
Lake County.
    We have watershed responsibilities in these canyons, and 
for many decades, really now going well over a century, we have 
invested enormous resources to protect those watersheds and to 
still allow for a wide variety of uses. We have been able to do 
that by very carefully considering proposals.
    Mr. Grijalva. Some of the other witnesses have mentioned 
studies that the projections or the claims are it will create 
jobs, lower traffic congestion. How do you feel about the 
reliability of those studies?
    Mr. Becker. The analysis that our folks have done today 
does not place much credence in them both in terms of the 
quality of the studies and in terms of the breadth of the 
studies that are needed for a proposal like this.
    Mr. Grijalva. Thank you. Thank you, Mayor. I just want to 
say that the Chairman of this Committee, Doc Hastings, always 
admonishes us about the fact that if the congressman of that 
particular district where the project is, that they should have 
significant input as to what that project is or isn't. He asks 
that question consistently, and you pointed out that Mr. 
Matheson is opposed to the project and it is in his district. 
Let me thank you and yield back, Mr. Chairman.
    Dr. Gosar. I thank the Ranking Member. I would like to 
acknowledge the Chairman for the Subcommittee, Mr. Bishop.
    Mr. Bishop. Thank you. I appreciate that, and I appreciate 
all of you taking the time to come here.
    Mr. Smith, it is good to see you again. I believe I met you 
out in California already. I appreciate that testimony at the 
same time. I have got a whole bunch of things here. Let me try 
and just go through this. First of all, Mr. Smith, if I could, 
you said one of the things that the Park Service tries to do is 
to make sure that they get market value for land in which they 
convey or sell. Do you know how much you paid for the land in 
Alta in the first place?
    Mr. Smith. No, I don't know that. I can certainly find out, 
Mr. Chairman.
    Mr. Bishop. There will probably be another bill that will 
come through very quickly and as well may be on the Floor that 
talks about paying for costs, for administrative costs for land 
transfer. I suppose if you had to pay $1 for that land 
transfer, I expect the fair market value would be $1 coming 
back at you?
    Mr. Smith. That is about right. I mean, typically under the 
Federal rules, FLPMA, we are required to get fair market value 
and so basically based on the Federal appraisal standards that 
is how we come up with that value.
    Mr. Bishop. Come on. If you paid $1 for it, shouldn't you 
get $1 back?
    Mr. Smith. Congressman, we don't make the rules.
    Mr. Bishop. Yes, but you are becoming a good capitalist at 
the same time. Thank you for having a monopoly and then 
charging for it.
    Let me ask you one other thing too, in particular the 
SkiLink bill for example. You said you opposed the bill because 
it would create a 30-acre inholding, yet in Mr. Herger's bill 
it eliminates a 150-acre inholding in that Six River National 
Forest, and you said that eliminating that inholding would have 
no measurable benefit for the management of the forest. So 
giving up 30 acres or two acres in Alta, I am assuming by the 
same logic it would have no measurable impact on the 
management?
    Mr. Smith. I don't have those figures in front of me. I can 
just tell you, Congressman, that I will certainly look into 
that.
    Mr. Bishop. All right. I am giving you a logic train. You 
don't necessarily have to have figures for it. That is OK. We 
have dealt with the Forest Service before.
    Can I ask some questions of Ms. O'Dell if I could about the 
Connecticut project here? Because originally you said the 
proposal did not meet the feasibility criteria for the project, 
yet I believe you have said there have been new decisions to 
public access and financial viability of the developer that has 
caused a change in that opinion. So let me go through maybe 
three or four very quick ones. Has the Park Service made any 
positive finding related to public access to the structures in 
Coltsville?
    Ms. O'Dell. I believe the town, the community, has made a 
lot of progress in bringing some buildings back to life and put 
schools in some of the buildings and cleaned up and developed 
some and so we are----
    Mr. Bishop. OK. But public access. Have you changed the 
findings on that?
    Ms. O'Dell. We have not changed the special resource study 
at all yet, sir.
    Mr. Bishop. All right. So, has the Park Service determined 
whether or not there is a need for Park Service management of 
Coltsville? Do you have an official change on that one?
    Ms. O'Dell. Again, the study has not officially been 
changed, but our testimony says that the National Park Service 
could serve an important role here as the National Park unit.
    Mr. Bishop. This is a project that I personally like. I 
would like to make it work somehow if we could. But are the 
private property owners aware--are the property owners aware--
that in this legislation it provides for the Secretary of the 
Interior the right to inspect their finances?
    Ms. O'Dell. I am sorry, sir. I don't know if the developer 
is aware of that yet. I am imagining he is because there has 
been a very good, strong dialogue between the City of Hartford 
and the National Park Service.
    Mr. Bishop. But you and the Park Service were aware that 
that language is in this bill?
    Ms. O'Dell. Yes, sir, we are.
    Mr. Bishop. So, have the owners of the properties consented 
to having them be included in the park boundaries? Let us just 
go through a couple. Have the owners of East Armory consented 
to be included in the boundaries?
    Ms. O'Dell. I am not sure if the owners are, sir. The City 
of Hartford----
    Mr. Bishop. Just the owners. The Church of the Good 
Shepherd?
    Ms. O'Dell. I am unaware, sir.
    Mr. Bishop. Colt Park?
    Ms. O'Dell. I am unaware.
    Mr. Bishop. Potsdam Cottages?
    Ms. O'Dell. I personally am unaware.
    Mr. Bishop. OK. So, if I keep going through these property 
owners, I am going to get the same answer, aren't I?
    Ms. O'Dell. That is correct, sir.
    Mr. Bishop. All right. I am not saying that it is 
necessarily a criticism--yes, I am saying it is a criticism, 
but not one that is not overcomeable--but it is a concern for 
me that we give the Secretary of the Interior the right to 
inspect finances within the legislation, and it is a concern 
that the property owners need to have an up/down, yes/no. They 
need to be conformed with that, and I expect the Park Service 
to take the forefront in accomplishing those and giving a 
definitive answer at some point in the process as we go through 
with this particular bill.
    Ms. O'Dell. We will be happy to do that, sir.
    Mr. Bishop. I have no clue----
    Mr. Segarra. If I may, Mr. Chair?
    Mr. Bishop. We need our timer back from our old committee 
so I know. I know I have less than a minute, but if you would 
like to take that less than a minute? I have some other 
questions. Please, sir. Thank you, Mr. Mayor.
    Mr. Segarra. Yes, Mr. Chairman. Thank you. As mayor I can 
tell you that the level of cooperation between the local 
stakeholders has been incredible. We recently met with the 
Governor to try to get some additional state support for this 
park. The current owners of Coltsville are very invested in 
making this happen, as are the parks. We have boosted up our 
resources for Colt Park in terms of repairs and improvements, 
so we are all very committed.
    Mr. Bishop. I appreciate that. My time is up this time. But 
you have heard my concerns. They need to be fixed in this bill.
    Mr. Segarra. Absolutely.
    Mr. Bishop. There is some power given to the Secretary of 
the Interior that is unprecedented and ought not to be there, 
and I want to make sure those property owners have had a clear 
chance of understanding exactly what it is and have a chance to 
go yes/no. So I appreciate you working with them to make sure 
they actually do it.
    Mr. Segarra. Absolutely.
    Mr. Bishop. Thank you. I will yield back for this round.
    Dr. Gosar. At this time, I would like to acknowledge Mr. 
Kildee for his questioning.
    Mr. Kildee. Thank you, Mr. Chairman.
    Your Honor, the mayor, Mr. Segarra, I come from Flint, 
Michigan, which is the birthplace of General Motors. It is 
where David Buick lived for a while and Louis Chevrolet and 
Walter Chrysler and Charles Nash. And my dad came there to work 
in the new industry of building mobility for people using the 
interchangeable parts system, and it revolutionized America. 
Henry Ford was doing a little bit down in Detroit too, but 
Flint claims more of that. But it is very interesting and very 
important that we remember the roots, the very basic roots of 
our manufacturing process in this country, which built the 
economy of this country.
    We have done that in Flint, Michigan, when we were a little 
more affluent. Flint is going through some difficult times now, 
but we have the Sloan Museum dedicated to the auto industry. We 
have the Buick Special Museum where they have a 1904 Buick 
fully restored. As a matter of fact, they have a 1904 Buick 
engine they found tearing down a wooden wall at the Buick plant 
one time. They found a Buick engine that had only been fired up 
to see whether it worked or not and put away.
    But people come from all over to see how this country's 
industrial base was built. Now a Colt is different than a 
Buick, but the principle of the interchangeable part, we have 
to keep that in mind and let people know that these things just 
didn't happen. It took the genius of men and the genius of this 
country. So I am not speaking too much who should have control 
over this, but I think what you are after does generate jobs. 
It has generated jobs in Flint.
    Might I ask just one question? You gave some estimates as 
to the jobs it might create. How did you arrive at those 
estimates? Did you have some firm to look at that----
    Mr. Segarra. Yes.
    Mr. Kildee.--and look at other such similar programs?
    Mr. Segarra. Yes. There has been two independent economic 
analyses that have been done of what this National Park 
designation would mean in terms of the local economy and the 
regional economy. We can submit those to be part of the record 
if they are not already in the record.
    But I think, Congressman, what is really important here is 
that at a time when many are doubting America's ability to be a 
center of innovation and manufacturing, if we draw a reference 
to Samuel Colt and what he did in Hartford and how that 
translated to so many other industries, I think that is 
something that could add to the portfolio of cultural resources 
that we have in this country that will not only make our city 
and our state proud and our region but also give visitors an 
ability to witness firsthand how the genius of this man and all 
the components that are around the armory, around the arms 
factory, are incredible, to how this enterprise zone was 
created so early in the mid-1800s by Samuel Colt.
    It is amazing. The architecture is beautiful architecture 
at both of the churches. The architecture even at Colt is 
incredible. It is a place I think that could make not only our 
state proud but would make this country proud.
    Mr. Kildee. You mentioned Mrs. Colt.
    Mr. Segarra. Yes.
    Mr. Kildee. It is interesting. We can't leave out the 
women.
    Mr. Segarra. Absolutely.
    Mr. Kildee. Right there in Flint there were women who 
worked particularly at what we called then the AC Sparkplug 
plant. They played a role in design and they played a role in 
investment. So the men and women of this country really built 
this industry that made us a great industrial power, so good 
that within a matter of less than two months my dad quit making 
Buick engines and started building Pratt Whitney engines for 
our Air Force, and that is the alacrity of also American 
industry. And I really thank you for representing your city so 
well, and I encourage you to really help people remember where 
we came from.
    Mr. Segarra. We are trying to do that, sir. Mrs. Colt is 
still helping women to this day. She left quite a bit of an 
endowment to service the wives, widows, of Episcopalian 
ministers, so her works live on through today.
    Mr. Kildee. Thank you very much. Thank you, Your Honor.
    Dr. Gosar. Thank you very much, Mr. Kildee.
    The Chair will recognize himself. And the first question, 
Mr. Ryan, I know you answered most of these questions, but I 
really want to highlight them. What do you think the best 
remedy for the homeowners and the county is in this unfortunate 
situation in Mountainaire?
    Mr. Ryan. Thank you, Congressman Gosar. As you know, many 
of these people are going through difficult times. We heard it 
tonight. We see it throughout the country. This adds an 
additional challenge for them. It is a method of transfer at 
least cost for these property owners. They are willing to pay 
the $20,000. They would support paying less quite frankly. But 
we do know also that the Forest Service and the Federal 
Government need to have some level of reimbursement. They 
understand that, and they are willing to pay.
    Dr. Gosar. Now, for the record, these homeowners have all 
been paying their taxes, right, for this parcel of land?
    Mr. Ryan. They have been, Congressman Gosar. They have been 
paying their taxes since the inception or since the first sales 
occurred with the subdivision itself.
    It is important to note that they have also been treating 
it as their private land, and the county and the property 
owners had no idea this survey was erroneous. What they had 
done they had done legally. They used a correct process based 
on what was supposed to be an accurate survey.
    Dr. Gosar. I also last want to finish up with highlighting 
why the Small Tracts Act doesn't really work in this case and 
why it is prohibitive versus this kind of common-sense 
protocol.
    Mr. Ryan. Thank you, Congressman Gosar. The Small Tracts 
Act takes a long time. The Forest Service has to work with each 
property individually, which would be all of these properties 
handled individually. It is not necessarily the most cost-
effective mechanism for the Forest Service as well as the 
property owners. The costs go up related to that. It would 
require an appraised value associated with the properties, and 
in essence the property owners, who already paid for these 
lands out and out with higher assessed values, would have to 
pay again. This alternative is quick and efficient both for the 
Forest Service as well as the property owners.
    Dr. Gosar. And I think this is so apropos because this was 
a community that was driven together for a common solution, and 
this is a common solution that they all fittingly are part of. 
That is why I want to commend them for doing this.
    Tell them I am very sorry that the IT failed us today, but 
we will post it. What the magic of this was allowing them to be 
part of that solution empowering people to be part of that, and 
they willingly did this. It shows you just a beautiful part of 
my district that I am spoiled with. So I would hope that we 
could move this thing fast and move it forward appropriately 
for these people so that they can celebrate owning their own 
home and property. So, Mr. Ryan, thank you so very much.
    At this point in time, I am going to yield the balance of 
my time to the Chairman. Mr Bishop?
    Mr. Bishop. Don't I get my own time? OK. We will work it 
out somehow.
    First of all, Mr. Smith, I was just looking at a map, and I 
hope I got the right one there that deals with Mr. Herger's 
piece of legislation. The 150 acres as I understand it is an L-
shaped piece of property that has the Forest Service bounding 
it on all three sides going around the L and back again. Am I 
accurate in that picture?
    Mr. Smith. I think so. I think I remember seeing that 
parcel.
    Mr. Bishop. All right. Thank you. I appreciate that.
    Mr. Goar, if I could ask you a question? When using the 
construction techniques that you described in your testimony on 
the three other lifts, were there any water quality impacts 
that took place?
    Mr. Goar. Excuse me, Chairman. No, there were not.
    Mr. Bishop. Well, OK. Let me go to Mike. Councilman Jensen, 
some say this proposal has not received enough public review. 
We will continue that review process. But how long has this 
project or similar projects been talked about in the Salt Lake 
area?
    Mr. Jensen. This particular project has been talked about 
for about a year and a half, but there are studies that go back 
that talk about connecting the canyons clear back to 1989. 
There was a study done by MAG, Mountainlands Association of 
Governments, which is Utah County, Wasatch County and Summit 
County, where they talked about connecting them together back 
in 1990. So this has been on the topic of discussion since the 
late 1980s, early 1990s, Mr. Chair.
    Mr. Bishop. Well, then can I also ask you, you said in your 
written testimony that this project, which is a start--maybe 
not the conclusion to everything you need, but it is a start--
is the least environmentally invasive option. Does that mean 
that there have been some horrendous options out there that 
have a greater impact than this would have been? What do you 
mean by that statement?
    Mr. Jensen. When you look at, especially in this new study, 
the Wasatch Canyons Tomorrow, it talks about in there, but when 
you go up the mountains there is just not a lot of room to 
expand the roads, and so if you are going to talk about adding 
capacity up the canyons, that would have a lot greater impact 
than it would doing the tram, the SkiLink, over from the 
Canyons to Solitude because there is nobody who gets on and 
off. The terminus points of both are at existing infrastructure 
where there already is development.
    Mr. Bishop. All right.
    Mr. Jensen. The only impact would be a visual impact.
    Mr. Bishop. OK. So that is what you mean by least invasive?
    Mr. Jensen. Yes.
    Mr. Bishop. All right. Mr. Goar, can I then ask the other 
question here because obviously transportation is one of the 
questions involved in this particular situation. In your 
experience managing the Canyons, can you simply elaborate how 
you came up with the concept that this will improve the overall 
flow of traffic and maybe even why you expect the visitors' 
experience to be enhanced by this?
    Mr. Goar. Certainly. Probably the best example, every day 
of the ski season skiers and snowboarders travel between our 
resort and Solitude Mountain Resort I-80, Wasatch Boulevard and 
the Big Cottonwood Canyon Highway. They go in both directions. 
We know that those users, and they are a significant number, 
would utilize aerial transportation.
    The experience is extraordinary, like nothing else in the 
United States. There are no other resorts that are connected in 
this fashion. It would be a terrific alternative to getting in 
a car and driving the 45 miles between the two resorts. It is 
simple transportation. As the Chief mentioned, it is from 
existing infrastructure of one resort to the other.
    Mr. Bishop. So your assumption is this would be an increase 
in tourism, a tourism magnet of some kind?
    Mr. Goar. Yes, sir, that is correct.
    Mr. Bishop. And the assumption, and correct me if I am 
wrong here, was something like 18,000 cars that could be 
eliminated from going up either one canyon or the other?
    Mr. Goar. That is correct. Initially 18,000----
    Mr. Bishop. Based on what?
    Mr. Goar.--cars that would utilize aerial transportation 
versus driving the road, and that equates to a million miles a 
year and a million pounds of emissions.
    Mr. Bishop. Do you know how you came up with that number?
    Mr. Goar. Yes. We did a number of studies, both economic, 
environmental and traffic studies. Interplan, a local traffic 
consulting firm who has done work for the State of Utah for 
years, has done traffic analysis in this very area, in the 
Cottonwood Canyons and in Park City, did an analysis, and these 
are the findings that Interplan found through that study.
    Mr. Bishop. OK. Mayor, if I could ask you? And, by the way, 
congratulations on your recent reelection to a second term 
there in Salt Lake City.
    Mr. Becker. Thank you.
    Mr. Bishop. It is nice to have you home here again too. I 
was given is it the CIRA study, if I pronounced that properly?
    Mr. Becker. That is correct.
    Mr. Bishop. That did a preliminary environmental review of 
this area, and it talked in there about how the Big Cottonwood 
Canyon since 1936 when Brighton was opened and then Solitude 
around the mid-1970s, sometime in that area, have been opened 
and they have increased obviously in capacity as well as in 
visitation, but it said that in Big Cottonwood Canyon the 
forest boundaries indicates the water qualities remained 
stable.
    And then they also said, and I am quoting from the report, 
``The city concerns over the proposed SkiLink would be 
primarily focused on water quality impacts, including potential 
E. Coli and sediment contributions to the stream channels. The 
proposed SkiLink does not appear to have the potential for this 
type of impact based on water quality records.'' Do you have 
additional records that would contradict this preliminary 
report finding?
    Mr. Becker. No. We are certainly aware of that study. There 
have been studies. We monitor the water quality in that creek 
on a daily basis. We do intensive studies on a regular basis of 
Big Cottonwood Canyon, as all of our watershed canyons on a 
regular basis.
    What we see has not been addressed as part of the study, 
just one of the things that have not been addressed as part of 
that particular study, are not only the direct effects of 
putting in one lift and moving skiers from point to point but 
the indirect effects and the cumulative effects.
    The long-term effects when you look at this proposal in 
conjunction with the other proposals would be to double the 
area of ski area, ski area development in the Wasatch Canyons, 
in these two canyons in particular, and that is of great 
concern to us not only in terms of water quality and bringing 
in a lot of additional people that need to be studied carefully 
but also in terms of the many other users in the canyons.
    Mr. Bishop. All right. I can just finish up here real 
briefly if you want me to. Does the city intend to do some 
studies of their own in the near future that could be added to 
this?
    Mr. Becker. We would hope to be able to contribute to the 
information as it relates to this specific proposal and others, 
and we have just begun--this is something that has just emerged 
in terms of the specific proposal. We have just begun looking 
into what those studies should look like and certainly would 
want to look very carefully at the impacts.
    Mr. Bishop. Do you dispute the traffic analysis that has 
been given?
    Mr. Becker. Our folks who have taken an initial look at 
this traffic study feel it is badly inadequate.
    Mr. Bishop. To all of you, and I am hoping you have all had 
a chance to see it, I am assuming that Section 3 of this Act 
clearly states that all environmental policies and laws will be 
adhered to. Sorry, that is a preposition. We will adhere to 
those policies in all of these as we are going through. Nothing 
is going to be waived as far as the process. That seems clear?
    Mr. Becker. Yes. We understand that.
    Mr. Bishop. That is what I think am seeing reading into it.
    Mr. Jensen, let me ask you the last question. Can you 
elaborate on what kind of agencies have been involved with the 
proposals that we are talking about here?
    Mr. Jensen. Well, in the Wasatch Canyons Tomorrow study the 
three lead agencies were Salt Lake County, Salt Lake City and 
the State of Utah, but we included the Transportation 
Department, the UTA, the Town of Alta, as well as Envision 
Utah, Wasatch Front on our plan for transportation. We deal 
with this on a daily basis. As you know, funding is tight and 
so anytime you are going to add projects it poses a problem.
    MAG, the Association of Governments for Wasatch, Summit and 
Utah Counties, has also dealt with this in numerous studies 
over the past couple decades. So I think there has been a 
discussion about this for the past decades. Now this specific 
proposal only for the past year.
    Mr. Bishop. I want to thank all of you for being here 
before I yield my time to you, Mr. Acting Chair, for the 
Administration witnesses for coming here, for my three friends 
from Utah for making the four-hour flight out here. I 
appreciate you doing that. To the mayor. I think I have 
illustrated what concerns I do have in the proposal, and I 
would hope we could work those through very much.
    Mr. Segarra. Yes, sir.
    Mr. Bishop. And to Mr. Ryan and Mr. Gregory, I apologize 
for not giving you any questions. How are you?
    Mr. Ryan. Doing well, sir.
    Mr. Bishop. OK. Good. Thank you for being here. I will 
yield back.
    Dr. Gosar. Thank you. Thank you, Chairman. I just want to 
say once again, Matt, on behalf of me I just want to say thank 
you to all the people in Mountainaire for how they orchestrated 
themselves, how they conducted business on behalf of 
themselves, coalescing, the County Board of Supervisors and how 
they came together with another idea. I just want to applaud 
that because that is the way things ought to work.
    Mr. Ryan. Thank you, Congressman Gosar. Appreciate that.
    Dr. Gosar. If there are no further questions, I want to 
thank the witnesses and the Members and the staff for their 
participation and preparation.
    Members of the Subcommittee may have additional questions 
for the witnesses, and they can ask you to respond to these in 
writing. The hearing record will be open for 10 days to receive 
these responses.
    If there is no further business, without objection, the 
Subcommittee stands adjourned.
    [Whereupon, at 1:37 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

Statement of The Honorable Howard P. ``Buck'' McKeon, a Representative 
         in Congress from the State of California, on H.R. 2157

    Chairman Bishop, Ranking Member Grijalva, and Members of the 
Subcommittee,
    Thank you for allowing me the opportunity to testify on behalf of 
my legislation, H.R. 2157, and thank you for giving it a fair hearing. 
I also want to thank Rusty Gregory, Chairman and CEO of Mammoth 
Mountain, for making the trip to Washington, D.C. to testify on behalf 
of the bill.
    Mr. Chairman, the Mammoth Mountain Ski Area is located in the 
northern half of my district, in the Eastern Sierra. Mammoth provides 
between ten and thirty percent of the total employment in Mono County 
and is a premier recreation destination for tourists all throughout 
California and the U.S. Each winter, Mammoth sees an average of 1.3 
million visitors. These visitors pump vital money into the local 
economy by populating hotels, restaurants, and stores throughout the 
region. Tourism is the life-blood of the Eastern Sierra.
    Mammoth has operated on a Special Use Permit from the U.S. Forest 
Service since 1953. The base area of the mountain is aging rapidly and 
is in need of renovation and redevelopment in order to provide a safer, 
more enjoyable experience for visitors to Mammoth Mountain. However, 
these renovations are difficult to achieve under the terms of the 
Special Use Permit.
    Since 1998, Mammoth Mountain has been working with the Forest 
Service to complete a land exchange between their main base parcel and 
other desired Forest Service acquisitions. These acquisitions include 
high resource value lands in the Inyo, El Dorado, Stanislaus, and 
Plumas National Forests. The exchange would allow the main base to 
undergo significant and needed renovations.
    My legislation is meant to supplement and codify this agreement. It 
is needed for two reasons:
        1)  Two parcels that the Forest Service wants are outside Inyo 
        National Forest boundaries. Both parcels are currently leased 
        by the Inyo National Forest from the Los Angeles Department of 
        Water and Power.
        2)  There is more value in the Mammoth Mountain parcel than all 
        the land parcels exchanged in total, so Mammoth needs 
        legislation for permission to pay a cash equalization to the 
        federal government that will be used for future forest 
        acquisition.
    The agreement is widely supported by the local community because 
residents, business owners, and local governments understand the great 
value of having Mammoth Mountain in their community. Besides jobs and 
recreation, Mammoth supports a significant portion of the tax base, 
providing needed revenue throughout the region. We have received 
numerous letters of support from community members, including those 
from: Duane Hazard, Chair of the Mono County Board of Supervisors; 
Vikki Bauer, member of the Mono County Board of Supervisors; the Mono 
Lake Committee; the Eastern Sierra Land Trust; and the Mammoth Lakes 
Town Council.
    Mr. Chairman, thank you again for holding this hearing. Mammoth 
Mountain has been a good steward of the environment, a solid partner in 
economic vitality for the region, and an honest party in negotiations 
with the Forest Service. This land exchange will be mutually beneficial 
for all parties involved and I urge the subcommittee to move forward to 
markup the legislation during the 112th Congress. I look forward to 
answering any questions you may have about H.R. 2157 and thank you for 
your time.
                                 ______
                                 

 Statement submitted for the record by the Citizens' Committee to Save 
     Our Canyons on H.R. 3452 The Wasatch Range Recreation Access 
                            Enhancement Act

    We are writing to you today to voice our strong opposition to the 
sale of public lands within the boundaries of the Salt Lake City 
Municipal Watershed and managed by the U.S. Forest Service. This 
legislation sets a disturbing precedent that goes against the wishes 
not only of a public who rely upon these lands for drinking water, but 
also for those who chose to move their families and businesses to the 
Salt Lake Valley for access to public lands which enhance their quality 
of life. Furthermore, this legislation is a blatant attempt to help one 
corporation turn a profit at the expense of millions of visitors and is 
contrary to the 2003 Wasatch-Cache Forest Plan and other more recently 
concluded public processes. It is disheartening to us that the very 
representatives who require a county by county process dealing with 
public lands issues, turn on this very process, which they established, 
and cater to the demands of a foreign corporation.
    The ski industry in Utah is an important sector of our economy 
generating $1.1 billion in 2010 (approx. 1% of State GDP), but 
protecting our natural resources, preserving intact ecosystems, 
offering unmarred alpine vistas, and access to what the U.S. Forest 
Plan calls ``highly valued'' public lands, are huge factors in the 
generation of these dollars. In 2010, Utah brought in $6.53 billion 
from tourism, a figure Gov. Gary Herbert attributed earlier this week 
to Utah's unmatched natural beauty. Millions of people every year 
travel to this area to recreate both at resorts and on the adjacent 
Forest Service lands.
    The SkiLink proposal and the Wasatch Range Recreation Access 
Enhancement Act are going against recommendations which came out of the 
Wasatch Canyons Tomorrow process conducted by Envision Utah. A process 
which included the input of citizens and regional leaders to outline a 
vision for the Wasatch Canyons. That vision does not support the 
expansion of ski infrastructure into the untouched areas of the Wasatch 
Range. Moreover, one of the goals of the Envision process was the 
reduction of developable lands in the canyons in effort to establish a 
more cohesive land management pattern. Currently, community leaders, 
governmental entities and other interested stakeholders are working 
proactively in effort to ensure for the long term protection of 
watershed and public land resources in this area. H.R. 3452 sets a 
dangerous precedent for taking lands in the public domain and 
tranferring them into the private domain, specifically for the purposes 
of development.
    We do not disagree with the concerns of the ski industry as they 
pertain to transportation issues in these canyons. That is why we have 
not only been participating in local processes, but have contributed 
financially to them to underscore our commitment to finding real 
solutions. Our plea is for you to drop this bill and allow the public 
processes to play out honestly. There are solutions out there that will 
reduce traffic in our watershed, move resort patrons from point to 
point, but also protect areas of the Wasatch that bring business to the 
valley and give us the quality of life we seek as a community. We 
already have a lot of infrastructure in our canyons and in the 
valley's, we need to utilize this and come up with a solution that 
works for all.
    This bill puts a stop to honest public processes and is not the way 
transportation planning should be done. This legislation also conflicts 
directly with the Wilderness Legislation that stakeholders from the ski 
industry, local governments and environmental groups worked on arriving 
at a consensus bill, taking over two years.
    The future of the Wasatch lies in maintaining a balance, a balance 
between development and undeveloped lands, between resorts and 
backcountry, but also ensure that our water resources are not degraded 
and that the costs of that degradation are not passed onto the public 
who relies upon the quality of life these mountains provide to us. This 
legislation tips this delicate balance in favor of development and 
establishes a precedent to continue doing so for the other six resorts 
in the Central Wasatch, and seven other resorts across the state that 
have their eyes on expanding onto additional public lands. Getting 
people out visiting resorts, enjoying the mountain air is important, 
but so to is protecting lands, leaving them intact and pristine for the 
benefit of future generations.
    Thank you for the opportunity to provide this statement. Sincerely,
Carl Fisher, Executive Director, Save Our Canyons
                                 ______
                                 

 Statement submitted for the record by The Honorable Mark Wier, Mayor, 
City of Mesquite, Nevada, on H.R. 2745, Amending the Mesquite Lands Act 
                                of 1986

    Chairman Bishop, Ranking Member Grijalva and members of the 
Subcommittee, thank you for holding this hearing today and allowing me 
to testify on behalf of H.R. 2745, a bill will make technical 
amendments to the Mesquite Lands Act of 1986. J would also like to 
thank Congressman Joe Heck for introducing this important piece of 
legislation and Congressman Mark Amodei for being a cosponsor.
    The City of Mesquite is a progressive city of 20,400 residents 
located in Southern Nevada along the Arizona boarder. For the past two 
decades, Mesquite has been one of the fastest growing small cities in 
the country due to an excellent quality of life, favorable business 
environment and an abundance of outdoor recreational opportunities. All 
of these factors led to a phenomenal growth rate, which stretched the 
city to its boundaries and created a need to expand the City's existing 
airport in order to maximize our economic potential. As the City of 
Mesquite is landlocked by publicly owned land, Congress enacted two 
amendments to the original Mesquite Lands Act of 1986 to allow the City 
to continue to grow and prosper in a positive manner. In 1999 Congress 
passed the latest Mesquite Lands Act amendment with the specific 
purpose of providing land to construct a commercial airport and to 
provide more room for commercial and industrial development to meet 
future demands for its citizens and a rapidly growing tourism industry.
    In 2002, The U.S. Fish and Wildlife Service (FWS) issued a Mesquite 
Lands Act Biological Opinion (MLA BO) to the BLM, which, among other 
things, mandated that the City participate in the development and 
implementation of the Virgin River Habitat Conservation and Recovery 
Plan (VRHCRP) and a Hydrologic Monitoring and Mitigation Plan (HMMP). 
The VRHCRP was established to provide a mechanism for federal and non-
federal entities to work collaboratively to protect and conserve 
imperiled species in the Lower Virgin River Basin and to ensure that 
the Virgin River is not adversely impacted by the extraction of 
groundwater from new development. In concert with habitat plan 
development, the U.S. Fish and Wildlife Service has notably allowed 
development to continue in Mesquite, with the understanding that the 
plan would be implemented upon adoption.
    Subsequent to the MLA BO, Congress made a technical amendment to 
the Mesquite Lands Act that set aside a portion of the proceeds from 
the sale of each parcel for the ``development'' of the VRHCRP and the 
HMMP. For some reason, language allowing for the ``implementation'' of 
these plans was omitted from this amendment. Other land acts, such as 
Southern Nevada Public Lands Management Act (Section 4 (e)(3)(A) iii) 
and the Lincoln and White Pine County Lands Acts, clearly state that 
funds shall be expended on development and implementation of multi-
species habitat conservation plans that are associated with new 
development in their respective areas, it is the City's position that 
the same process should be applied to the Mesquite Lands Act.
    The City of Mesquite, the Southern Nevada Water Authority and the 
Virgin Valley Water District have committed, through various mitigation 
and hookup fees, a significant amount of funding over the life of the 
VRHCRP. However, costs for the mitigation and recovery efforts could 
reach $63 million, which would place a significant financial burden on 
the City and our local water district. Allowing these special funds to 
be used for ``implementation'' of the VRHCRP would provide an 
additional $4.8 million to this effort.
    In addition to the clarification for the VRHCRP, there is an issue 
regarding the timing of the land sales identified in the 1999 amendment 
to the MLA that is also addressed in H.R. 2745. The 1999 amendment 
gives the City the exclusive right to purchase, at fair market value, 
the land identified in the MLA from the Bureau of Land Management for a 
period of 12 years from the date of enactment of the Land Act. Due to 
the severe economic conditions that continue to plague Southern Nevada 
and a delay of the Environmental Impact Statement for the Airport site, 
the City is not in a position to purchase the final sections of 
property at this time and, therefore, was not able to make this 
deadline. The City of Mesquite remains committed to ensure that it 
continues to grow in a positive manner, and needs an extension of time 
to allow economic conditions to improve.
    Mr. Chairman, thank you again for allowing me the opportunity to 
testify on behalf of H.R. 2745. I sincerely appreciate your interest in 
this legislation and ask that it be given favorable consideration as it 
is reported out of this subcommittee. I will be happy to address any 
questions that you may have.

                                 <all>

</pre></body></html>
